<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander, (chairman) 
presiding.
    Present: Senators Alexander, Hoeven, Kennedy, Feinstein, 
Murray, Tester, Udall, Shaheen, and Merkley.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. RICK PERRY, SECRETARY
ACCOMPANIED BY:
        HON. LISA E. GORDON-HAGERTY, UNDER SECRETARY FOR 
            NUCLEAR SECURITY ADMINISTRATOR, NATIONAL NUCLEAR 
            SECURITY ADMINISTRATION
        HON. PAUL M. DABBAR, UNDER SECRETARY FOR SCIENCE
        HON. JOHN VONGLIS, CHIEF FINANCIAL OFFICER


              opening statement of senator lamar alexander


    Senator Alexander. Thank you for your patience. The 
subcommittee on Energy and Water Development will please come 
to order.
    I brought with me the walking stick from Sam Houston. He 
left this stick in Nashville, Tennessee at the Hermitage when 
he brought his son to see Andrew Jackson as Jackson lay dying 
and Jackson died just before Houston arrived. Reason I brought 
it was because Houston grew up in Maryville, Tennessee and was 
trained in Tennessee as Governor before he became the Governor 
of Texas. And I always mention that to Secretary Perry, who is 
the longest-serving Governor of Texas ever, and I bring the 
stick with me in case we need it.
    So, usually we don't. But it's a great privilege to work 
with Secretary Perry, who is off to a very quick start with his 
background in government and politics and coming from an energy 
State.
    It's a privilege to continue to work with Senator 
Feinstein, who sometimes is chairman and sometimes is vice 
chairman of the subcommittee, but whether--it really doesn't 
make much difference because we take our differences of opinion 
and we find a way to work them out. And usually we are the 
first appropriations bill on the Senate floor and usually we 
pass our bill. And I hope that we will be able to do that this 
year since we have, we already know the overall number of the 
budget. It ought to make it easier for us as a Senate to do it 
all.
    Today's hearing will review the Administration's fiscal 
year 2019 budget request for the Department of Energy and the 
National Nuclear Security Administration, NNSA. This is the 
subcommittee's first budget hearing this year. We will have 
hearings on the Nuclear Regulatory Commission and the Corps of 
Engineers and the Bureau of Reclamation budget requests over 
the next 2 weeks.
    In the past the subcommittee has had one hearing to examine 
the Department of Energy's budget request and a separate 
hearing to examine the NNSA budget request. This year, because 
of time constraints, we have combined both hearings into one. I 
appreciate the Secretary's flexibility in accommodating our 
hearing schedule this year.
    I will then recognize each Senator for up to 5 minutes for 
an opening statement alternating between the majority and 
minority in the order in which they arrive. Then we will turn 
to Secretary Perry for his testimony on behalf of both the 
Department and NNSA. And at the conclusion of Secretary Perry's 
testimony I'll recognize Senators for a five minute round of 
questions.
    First, I'd like to thank the Secretary, as I just did, for 
being here and being responsive to us. I want to thank Senator 
Feinstein, whom I just did, for the privilege of working with 
her. She's a former mayor, she's result-oriented. I'm a former 
governor, so am I, and we try to get results.
    Our witnesses today include Secretary Rick Perry, Secretary 
of Energy. Ms. Lisa Gordon-Hagerty, the Administrator of the 
National Nuclear Security Administration. The Secretary is also 
accompanied by Mr. Paul Dabbar, the Under Secretary of Energy 
for Science. And John Vonglis, the Chief Financial Officer at 
the Department of Energy.
    I'm very pleased with the fiscal year 2018 energy and water 
appropriations bill, which provided $6.26 billion, record 
funding in appropriations bills, for the third consecutive year 
for the Office of Science which supports the Department of 
Energy's 17 national laboratories.
    The bill also included $353 million for ARPA-E (Advanced 
Research Projects Agency--Energy) to continue the important 
research and development investments in high impact energy 
technologies, another record funding level. The bill also 
supported our national security programs providing $14.7 
billion for the National Nuclear Security Administration, 
including record funding levels for our weapons program and 
naval reactors.
    Now we are turning our--while I'm at it, I would like to 
say about that bill, there's been some discussion about the 
spending levels in the omnibus bill 2 weeks ago. I didn't like 
the process. I don't like the process when we do our work in 
the appropriations committee and then the full Senate doesn't 
have a chance to offer amendments on the floor.
    The main problem is that Democratic Senators object to 
Republican Senators' amendments and then Republican Senators 
object to Democratic Senators' amendments. There's an old 
practice in the Senate of actually voting on amendments, which 
would be a good practice we might try to introduce this year.
    As far as the funding levels in the omnibus spending bill, 
it is true, in my opinion, that we have a very significant 
Federal debt problem, but you are shooting at the wrong target 
when you shoot at the appropriations spending.
    The problem with the Federal debt is with the mandatory 
spending. The appropriations spending, which we approved 2 
weeks ago, is a 2 year budget agreement that spends $296 
billion over the next 2 years. According to the Congressional 
Budget Office report, that's about a 2.7 percent average growth 
rate, which is just a little above the inflation rate for the 
next 10 years.
    Over the last 10 years the growth rate was a little below 
the inflation rate. So over that entire 20 years, the last 10 
and the next 10, the growth of the 30 percent of the budget 
that is, that is discretionary spending, that's national 
defense, more than half of it, some of it reflected here in 
this hearing. National parks, national laboratories, national 
institutes of health, opioids, and disasters, all of that 
spending is growing about the rate of inflation. That's not the 
source of the Federal debt problem.
    The source of the Federal debt problem, which neither party 
has been willing to address, is the entitlement programs which 
have gone up at this rate. The entitlement programs, according 
to the same Congressional Budget Office report that said that 
discretionary spending would go up 23 percent over the next 10 
years, said that mandatory entitlement programs would go up 
nearly 100 percent over the next 10 years. Clearly an 
unsustainable, unsustainable level.
    So I think it's important that when we are talking about 
Federal spending that we aim our shots at the right target. And 
we do have good funding levels for the Office of Science, for 
the Corps of Engineers, for a whole variety of programs under 
the jurisdiction of this committee, but they are funding levels 
that we should have and they are within the budget caps and 
they are at a rate of spending increase that's about the level 
of inflation and they are not the source of the Federal debt 
problem.
    Now we are turning our attention to the Administration's 
2019 budget request for the Department of Energy, a Federal 
agency with three critical missions; nuclear security, science 
and energy, and environmental management. We are here today to 
review the Department of Energy's budget request for that year, 
which begins October 1 and is approximately $30.6 billion, 
about 4.3 below what Congress provided in the fiscal year 2018, 
the year in which we are today.
    The budget requests fifteen one--$15 billion for the 
National Nuclear Security Administration, which is $400 million 
more than the fiscal year 2018 enacted level. I'm also pleased 
to see the Department's 2019 budget request prioritizes 
supercomputing. That continues a several years of priority 
through the Obama Administration, through Senator Feinstein's 
chairmanship and my chairmanship of this committee.
    We try to make sure that the United States is first or 
close to first in the world in computing. It includes 
approximately $672 million to deploy exascale systems in the 
early 2020s.
    Unfortunately, the budget request this year proposes to 
decrease spending on federally funded research and development, 
terminates ARPA-E and recommends reduced funding levels below 
what Congress provided last year. $870 million less for the 
Office of Science. $1.6 billion less for the energy efficiency 
and renewal energy. $448 million less for nuclear energy.
    So that's why we are holding this year, to give the 
Secretary an opportunity to discuss that, so Senator Feinstein 
and I, and other members of the committee, can make informed 
decisions as we write the energy and water appropriations bill 
over the next few weeks.
    I'd like to focus my questions on three main areas. Support 
for science and energy research. Number two, safe and effective 
nuclear weapons stockpile. Number three, solving the nuclear 
waste dispute.
    Research funding for the Department of Energy laboratories 
has produced technologies for unconventional natural gas 
development, supercomputing, 3-D printing, nuclear imaging 
devices used for medicine, MRI scanners, optical digital 
recording technologies, batteries and energy storage systems, 
precision detectors, and pharmaceuticals.
    It's hard to think of a major technological advance since 
World War II that hasn't had some sort of Federal research 
support. That's made us a world leader in science and 
technology. It's one important reason why the United States 
produces nearly one out of every four dollars in wealth 
produced in the world.
    A key pillar of our national defense is a strong nuclear 
deterrent. In February, the Administration issued an updated 
nuclear policy, the Nuclear Posture Review. It recommends 
continuing many things we worked on for several years. Things 
that I support, including continuing life extension programs, 
continuing to invest in facilities to maintain our weapons 
stockpile, including the Uranium Processing Facility and the 
plutonium facility.
    I'm pleased to know the department approved the design of 
the nuclear buildings for the uranium facility last month which 
allows the contractor to begin construction. Senator Feinstein 
and I have worked for several years to try to bring that 
facility on time and on budget and we believe that we have.
    The Nuclear Posture Review, which calls for two low-yield 
warheads to be added to the stockpile, I'd like to hear more 
about that today.
    Then there's the nuclear waste stalemate. We need to solve 
this problem. This has been a priority, especially of Senator 
Feinstein, but with my equally strong support over the last 
several years. I compliment her for her leadership. She has 
been especially sensitive to California's needs in this 
respect, as well as to the Country's.
    This year's budget request for the Department of Energy 
includes a $110 million to restart Yucca Mountain and $10 
million to study ways to open an interim storage site or use a 
private interim storage site. I believe Yucca should be a part 
of the solution to the nuclear waste stalemate. Federal law 
designates Yucca Mountain as the Nation's repository for used 
fuel and the commission's own scientists have told us that we 
can safely store nuclear waste there for up to one million 
years.
    But even if Yucca Mountain were open today we would still 
need to look for another permanent repository. We have more 
than enough used fuel to fill Yucca Mountain to its legal 
capacity. So Senator Feinstein and I, along with the leaders of 
the Committee of Energy, Murkowski and Bingaman and Wyden and 
Cantwell, have had a bill to implement the recommendations of 
the President's Blue Ribbon Commission on America's Nuclear 
Future, which we are working to reintroduce this year.
    This legislation compliments Yucca Mountain. It would 
create a new Federal agency to find additional permanent 
repositories and temporary facilities. But the quickest and 
probably least expensive way for the Federal Government to 
start to meet its used nuclear fuel obligations is for the 
Department of Energy to contract with a private storage 
facility for used nuclear fuel.
    Last year the Secretary told the subcommittee that the 
Department of Energy has the authority to take title to used 
nuclear fuel, but you were hesitant, Mr. Secretary, to agree it 
has the authority to store the used fuel in a private facility 
without more direction from Congress. I understand that two 
private companies have submitted applications to the Nuclear 
Regulatory Commission for consolidated storage facilities. One 
in Texas, one in New Mexico. I'll be asking some questions 
about that.
    So, Mr. Secretary, I look forward to working with you, and 
Administrator Gordon-Hagerty, as we begin putting together our 
energy and water appropriations bills. I will need the 
Secretary's assurance that the Department will continue to fund 
projects consistent with Congressional intent in the 2018 
omnibus appropriations bill. And we would also like to hear 
your priorities for the 2019 bill, which will reflect funding 
levels much like the 2018 bill and will provide the department 
with more, not less money than the budget request.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    First, I would like to thank Secretary Perry for being here today. 
This is Secretary Perry's second year before the subcommittee.
    I also want to thank Senator Feinstein, with whom I have the 
pleasure to work again this year to draft the Energy and Water 
Appropriations bill.
    Our witnesses today include: Secretary Rick Perry, the Secretary of 
Energy; and Ms. Lisa Gordon-Hagerty, the Administrator of the National 
Nuclear Security Administration.
    The Secretary is also accompanied by Mr. Paul Dabbar, the 
Undersecretary of Energy for Science and John Vonglis, the Chief 
Financial Officer at the Department of Energy.
    I am very pleased with the fiscal year 2018 Energy and Water 
Appropriations bill, which provided $6.26 billion, record funding in a 
regular appropriations bill for the 3rd consecutive year, for the 
Office of Science, which supports the Department of Energy's 17 
national laboratories.
    The 2018 bill included $353 million for ARPA-E, to continue the 
important research and development investments into high-impact energy 
technologies--another record funding level in a regular appropriations 
bill.
    The 2018 bill also supported our national security programs, 
providing $14.7 billion for the National Nuclear Security 
Administration, including record funding levels for our Weapons Program 
and Naval Reactors.
    Now we are turning our attention to the administration's fiscal 
year 2019 budget request for the Department of Energy, a Federal agency 
with three critical missions: nuclear security, science and energy, and 
environmental management.
    We're here today to review the Department of Energy's budget 
request for fiscal year 2019, which begins on October 1st of this year, 
and is approximately $30.6 billion dollars. This amount is about $4.3 
billion below what Congress provided in the fiscal year 2018 Energy and 
Water Appropriations bill for the Department.
    The budget requests $15.1 billion for the National Nuclear Security 
Administration, which is $400 million more than the fiscal year 2018 
enacted level.
    I'm also pleased to see that the Department's 2019 budget request 
prioritizes supercomputing, and includes approximately $672 million to 
deploy exascale systems in the early 2020's.
    Unfortunately the budget request this year again proposes to 
decrease spending on federally funded research and development, 
terminates ARPA-E, and recommends reducing funding levels below what 
Congress provided last year: the Office of Science by $870 million; 
Energy Efficiency and Renewable Energy by $1.6 billion; Nuclear Energy 
by $448 million; and Office of Electricity by $91 million.
    And that is why we are holding this hearing: to give Secretary 
Perry an opportunity to discuss the Department's priorities, so Senator 
Feinstein and I can make informed decisions as we begin to write the 
fiscal year 2019 Energy and Water Appropriations bill over the next few 
weeks.
    Governing is about setting priorities, and we always have to make 
some hard decisions to ensure the highest priorities are funded.
    Today, I'd like to focus my questions on three main areas, all with 
an eye toward setting priorities: prioritizing Federal support for 
science and energy research; maintaining a safe and effective nuclear 
weapons stockpile; and solving the nuclear waste stalemate.
    Research funding for Department of Energy laboratories has produced 
technologies for unconventional natural gas development, 
supercomputing, 3D printing, nuclear imaging devices used for medical 
diagnosis, MRI scanners, optical digital recording technology used to 
make DVDs, batteries and energy storage systems for cars and trucks and 
the electric grid, precision detectors, and pharmaceuticals.
    The Department of Energy's research programs have made the United 
States a world leader in science and technology, and these programs 
will help the United States maintain its brainpower advantage to remain 
competitive at a time when other countries are investing heavily in 
research.
    The Federal budget cannot be balanced by cutting discretionary 
spending, which is only 30 percent of Federal spending.
    Mandatory spending, which amounts to more than 63 percent of 
Federal spending, is the cause of the more than $21 trillion Federal 
debt.
    The Federal debt is not the result of Congress overspending on 
science and energy research each year.
    A key pillar of our national defense is a strong nuclear deterrent. 
In February, the administration issued an updated nuclear policy, 
called the Nuclear Posture Review.
    The updated Nuclear Posture Review recommends continuing many of 
the things we have been working on for the last several years--things 
that I support, including continuing Life Extension Programs to make 
sure our current nuclear weapons remain safe and effective, continuing 
to invest in the facilities we need to maintain our nuclear weapons 
stockpile. This includes the Uranium Processing Facility and the 
Plutonium Facility.
    I'm pleased to know the Department approved the design of the 
nuclear buildings for the Uranium Processing Facility last month, which 
allows the contractor to begin construction, and I'll be asking some 
questions about that project today.
    The Nuclear Posture Review also calls for two low yield warheads to 
be added to the stockpile, largely in response to capabilities being 
developed by Russia and other countries.
    I'd like to hear more about that today, and look forward to hearing 
the reasons the administration determined these warheads are needed for 
our national defense.
    To ensure that nuclear power has a strong future in this country, 
we must solve the decades' long stalemate over what to do with used 
fuel from our nuclear reactors.
    Senator Feinstein and I have been working on this problem for 
years, and I'd like to take the opportunity to compliment Senator 
Feinstein on her leadership and her insistence that we find a solution 
to this problem.
    To solve the stalemate, we need to find places to build geologic 
repositories and temporary storage facilities so the Federal Government 
can finally meet its legal obligation to dispose of nuclear waste 
safely and permanently.
    This year's budget request for the Department of Energy includes 
$110 million to restart work for Yucca Mountain repository and $10 
million to study ways to open an interim storage site or use a private 
interim storage site.
    I strongly believe that Yucca Mountain can and should be part of 
the solution to the nuclear waste stalemate. Federal law designates 
Yucca Mountain as the nation's repository for used nuclear fuel, and 
the Commission's own scientists have told us that we can safely store 
nuclear waste there for up to one million years.
    But even if we had Yucca Mountain open today, we would still need 
to look for another permanent repository. We have more than enough used 
fuel to fill Yucca Mountain to its legal capacity.
    So Senator Feinstein and I, along with the leaders of the Committee 
on Energy and Natural Resources, Senator Murkowski and then Senators 
Bingaman, Wyden, and now Senator Cantwell, have a bill to implement the 
recommendations of the President's Blue Ribbon Commission on America's 
Nuclear Future, which we're working to reintroduce this year.
    The legislation complements Yucca Mountain, and would create a new 
Federal agency to find additional permanent repositories and temporary 
facilities for used nuclear fuel.
    But the quickest, and probably the least expensive, way for the 
Federal Government to start to meet its used nuclear fuel obligations 
is for the Department of Energy to contract with a private storage 
facility for used nuclear fuel.
    Last year, you told this subcommittee that the Department of Energy 
has the authority to take title to used nuclear fuel, but you were 
hesitant to agree that it has the authority to store the used fuel at a 
private facility without more direction from Congress.
    I understand that two private companies have submitted applications 
to the NRC for consolidated storage facilities, one in Texas and one in 
New Mexico. I'll be asking some questions about this today.
    I look forward to working with Secretary Perry and Administrator 
Gordon-Hagerty as we begin putting together our Energy and Water 
Appropriations bill for fiscal year 2019.
    I will need the Secretary's assurance that the Department will 
continue to fund projects consistent with congressional intent in the 
fiscal year 2018 Omnibus Appropriations bill.
    I would also like to hear what Secretary Perry's priorities are for 
an fiscal year 2019 Energy and Water Appropriations bill, which will 
reflect funding levels much like the fiscal year 2018 bill, and will 
provide the Department more, not less money, than the budget requests.

    Senator Alexander. I will now recognize Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. And I 
thank you for your remarks about me. I would double them with 
respect to you.
    I've said for many years now that one of the great treats 
of my Senate service has been the ability to work with you and 
to listen to big problems and we have done a lot of that. The 
new Secretary has become a part of that problem-solving.
    Some of them are very difficult to solve, but you've always 
been constructive, you've always been forward-looking, and 
you've always been reasonable. And I can't say that for 
everyone. So thank you very much.
    Mr. Secretary, I want to welcome you. I look forward to 
your statement. So far, what I can see, you've been strong and 
ready and able. And so that's delightful.
    Madam Administrator, I have had the opportunity to have a 
meeting with you, which I very much enjoyed, and look forward 
to working with you particularly on matters of mutual concern.
    And Mr. Dabbar, I would say the same for you as well. So 
thank you very much.
    Mr. Chairman, you were very nice in your remarks about the 
cuts in this budget. But this budget, in parts, is just cut, 
cut, cut. The Administration proposes to cut energy efficiency 
programs by 70 percent. It proposes to cut electricity delivery 
and energy reliability programs by 75 percent. It proposes to 
cut scientific research programs by 14 percent and it proposes 
to entirely eliminate ARPA-E. It even proposes to cut the 
peaceful nuclear energy programs I know you care so much about 
by 37 percent.
    So I am really deeply disappointed in this part of the 
budget that it fails to adhere to the spending cap agreement 
that this Administration has just supported. Instead, it 
proposes to cut $3.9 billion from nondefense programs while 
increasing defense funding for the National Nuclear Security 
Administration. That's not the kind of parity between defense 
and nondefense that Congress just agreed to and that the 
President signed into law.
    Speaking of ever-increasing defense spending at the expense 
of everything else, let me say a few words about the 
Administration's Nuclear Posture Review. In 2010, as part of 
the New START Treaty negotiations in the Senate, Chairman 
Alexander and I agreed to a straight-forward deal. We would 
fund the modernization of our nuclear arsenal in exchange for 
an overall reduction in the number of deployed nuclear 
warheads--nuclear weapons and the specific elimination of the 
B83 warhead.
    In keeping with that agreement, the Obama Administration 
requested $85 billion over 10 years for warhead life extension 
programs, facility upgrades and scientific research activities.
    By the end of this year, Mr. Chairman, this subcommittee, 
both under your leadership and mine, has kept our word and 
appropriated 98 percent of the funds requested, a total of 
$65.6 billion. The only reason it's not a hundred percent is 
because of the imposition of sequestration in 2013.
    With the President's 2019 and projected 2020 request the 
total will reach nearly $89 billion. So we have more than held 
up our end of the bargain. However, the Trump Administration's 
Nuclear Posture Review jeopardizes the Executive Branch's end 
of the bargain by proposing new nuclear weapons and other 
unnecessary and costly changes to our nuclear arsenal.
    I'd like to mention just two of the most egregious 
examples. First, the Nuclear Posture Review proposes to retain 
the B83-1 and the B61-11 nuclear gravity bombs, which were 
supposed to be retired in the 2020s. The exact size is 
classified, which makes for an uninformed discussion. But I can 
say that the B83 is the largest warhead in America's arsenal. 
It is capable of not only wrecking mass destruction and human 
misery on any target country, but it would also create 
devastating problems for innocent neighboring countries.
    Times have changed since World War II. The world is more 
interconnected and knowledgeable about nuclear weapons and I 
simply don't believe the American people would ever sanction 
the use of such a massive weapon capable of such devastating 
destruction.
    In 2013, this subcommittee agreed to the modernization of 
the B61 family of bombs in exchange for the retirement of the 
B83 in the mid 2020s. The ongoing B61 modernization program 
replaces aging components. But, most importantly, it 
consolidates five current variants of the B61 into a single 
model and reduces the overall number of warheads. At the time, 
I expressed concerns about the cost and management of the B61 
Life Extension Program.
    In 2013, I wrote to President Obama saying ``I am concerned 
that the NNSA proposed B61 Life Extension Programs are 
unaffordable and the proposed scope of work is not the lowest 
cost option that meets military requirements.''
    Now, despite my reservations, I relented because I 
understood that the B61 Life Extension Program would lead to a 
reduction in the overall number of nuclear weapons and the 
eventual retirement of the B83 gravity bomb, which was my 
original goal.
    I have a letter here from former Defense Secretary Hagel 
and former Energy Secretary Moniz from 2013. They wrote that 
the B61 Life Extension Program ``would allow us to pursue 
retirement of the B61-11 and the B83 gravity bomb.''
    I'd ask that that letter be included in the record.
    Senator Alexander. It will be.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Feinstein. Thank you.
    And Frank Kendall, then Chairman of the Nuclear Weapons 
Council wrote to me in 2014 that ``fielding the B61-12 enables 
the retirement of the B83-1 bomb in mid to late 2020s.''
    And I ask consent to add that letter to the record too. And 
also my recent letter to Secretary Perry and Secretary Mattis 
in the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Feinstein. Thank you.
    Mr. Chairman, we had a deal. We agreed to modernize the B61 
in exchange for retiring the B83 and reducing the total number 
of nuclear warheads in the arsenal. Now the Trump 
Administration is reneging on that deal and they aren't even 
providing any justification at all for retaining this huge 
warhead, the B83.
    Why should this subcommittee agree to fund the B61 life 
extension at all if this Administration is just going to retain 
the B61, B83 anyway?
    Mr. Chairman, as I said in my letter to you this week, I'd 
like to work with you in drafting an energy and water 
appropriations bill that adheres to our agreement and keeps in 
place the plan to retire the B83. If we can get rid of this 
gigantic, terrible weapon while ensuring our ongoing national 
security, I feel we will have done something good for the 
American people and for the world.
    And let me say this, Mr. Chairman, this is extremely 
important to me. I'm one of the few people in this room that 
was old enough to remember our dropping the bombs on Hiroshima 
and Nagasaki. I was in California in San Francisco, a little 
girl. I remember reading the San Francisco Chronicle with 
horrible pictures, people running and skin falling off their 
back. And it's followed me my whole life and what I want to do 
is bring some sanity to the issue.
    The size of these bombs, all of which is classified, so we 
can't go out and tell people how big or how small they are. And 
this is very frustrating because the average public doesn't 
know. We can't talk about 3 to 1 in the hedge. And it's not 
necessary to have 3 to 1 in the hedge. So I want to tell both 
you and the Secretary, I will not support the energy and water 
bill now or in the future that violates our agreement and 
retains the B83. The second egregious failing of this 
Administration's Nuclear Posture Review is the proposal for a 
low yield variant of our submarine launched ballistic missile. 
This comes at the eleventh hour of efforts to modernize our sub 
launched missile force. And we already have low-yield options 
in our nuclear arsenal that are already undergoing 
modernization. Why are those insufficient?
    I hope somebody can answer that question. I see a naval 
uniform with a lot of stripes on the sleeve.
    Mr. Chairman, I understand each Administration sets its own 
goals and policies. And that's fine. But Congress is also a co-
equal branch that should have its own independent priorities 
and this subcommittee should not simply take this latest 
Nuclear Posture Review as gospel.
    For the last 8 years now there has been a bipartisan 
consensus in Congress for maintaining and modernizing our 
nuclear arsenal. And this Chairman and I have worked together 
to do so. And I think we have achieved comity, we have achieved 
agreement. We have been getting the job done, we have been 
getting the funds funded.
    If the Trump Administration wants to throw out the current 
agreement with Congress then let's discuss it all and question 
everything. All the new and expensive facilities, every 
warhead, every science project, let's have a real debate about 
what's really necessary to defend this country and leave the 
world safer for future generations than we found it.
    I'd like to finish with just one more example of the 
inability to stick to prior agreements. It's been widely 
reported in the press that this Administration is considering 
submitting a rescission package to Congress that would undo 
parts of the recently passed 2018 spending bill, the parts that 
the President doesn't like.
    The 2018 spending bill contained things we all liked and 
did not like and that's what happens in a negotiation. A deal 
is a deal. Trying to undo the deal after the fact is really the 
height of bad faith and it would poison the appropriations 
process and imperil our ability to work together to ensure our 
shared priorities are funded in 2019.
    Mr. Secretary, welcome to the heat. I hope you are here 
today to tell me that I'm wrong about the Administration's 
intentions and that you are ready to work with this committee 
to robustly fund the important mission of the Department of 
Energy. I hope you're here to tell us that you will leave your 
department, our country and our world better off than you found 
it when you entered this present office.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.
    We will now see if Senator Shaheen, Senator Merkley would 
like to make any comments before we hear the Secretary.
    Senator Shaheen. I will wait until my questioning time. 
Thank you, Mr. Chairman.
    Senator Alexander. Senator Merkley.
    Well, thank you both for being here.
    Mr. Secretary, if you could summarize it in about 7 minutes 
or so that will leave us more time to go back and forth.
    Secretary Perry. I'll try to leave you more time than that, 
sir.
    Senator Alexander. Welcome.

                  SUMMARY STATEMENT OF HON. RICK PERRY

    Secretary Perry. Let me just say how refreshing it is for 
me to have two people on different sides of the aisle, but have 
such great admiration for each other and been working. I've 
been watching you for a lot longer than when I was privileged 
to be the Secretary and I appreciate you both greatly. Working 
with both of your staffs, and you, has been a great privilege 
and I thank you for that. And so let me just say it's a 
privilege and an honor for me to get to sit here in front of 
you as the 14th Secretary of Energy.
    I'm proud to be joined today and, quickly, Lisa is 
relatively new to come on board, but she's not new to the 
business at all. I'm really proud to have her as a colleague 
and be working together. She's headed up the nuclear security 
side of things and Lisa Gordon-Hagerty.
    And Paul Dabbar down on the other end. At one time a young, 
not that you're getting any--not that you're old, Dabbar, but a 
young, bright Naval Academy grad who now finds himself in the 
Office of Science and Under Secretary of Science. And Paul, 
thank you.
    John, thanks for your standing here to my left as well. 
Thank the members of the committee for each of you.
    Mr. Chairman, you mentioned this, but thank you for your 
flexibility in allowing us all to come here and be here 
together. That was very much of a help to us.
    This budget represents a request to the American people, 
through their representatives in Congress, to fund the 
priorities of this department and it underscores the DOE's 
(Department of Energy) commitment to stewardship, 
accountability, service. I hope that our interactions with you 
and other committees of Congress over the past year have 
underscored that commitment.
    Our DOE leadership team has appeared before Congress now 23 
times in 2017 and we are proud of the strong relationship that 
has been built with Congress. This is my fifth hearing in 2018 
and I am very proud of our standard of transparency.
    When I first appeared before this committee last year, I 
committed DOE to advancing several key objectives. I noted at 
that time that we needed to modernize our nuclear weapons 
arsenal, continue addressing the environmental legacy in many 
of your States and further advance domestic energy production, 
better protect our energy infrastructure and accelerate our 
Exascale computing capacity. The fiscal year 2019, $30.6 
billion budget request for the Department, seeks to advance 
these and other goals.
    Mr. Chairman, plain and simple, the United States 
Government has no greater or more solemn duty than to protect 
its citizens. The geopolitical environment has changed and it's 
changed significantly since the 2010 Nuclear Posture Review.
    Because nuclear deterrents is critical to our defense last 
year we promised a much needed upgrading of our arsenal. This 
year we have requested an 8.3 percent increase for that purpose 
and to align ourselves with the President's Nuclear Posture 
Review and the Nuclear Security Strategy.
    The current Nuclear Posture Review supports and improves 
our deterrent policy and existing capabilities to counter 
nuclear threats.
    We are also focusing on addressing the environmental legacy 
left at the Department site which produced the materials that 
helped us into world war and secure the peace. Last year we 
promised to focus on that obligation and this year we are 
requesting additional funds to do so. We also have a duty to 
advance a fundamental mission of our Department and that is 
energy independence for our country.
    And thanks to American ingenuity and innovation we are on 
the cusp of realizing that mission objective for the first time 
since the old shortages of the 1970s. In the coming years we 
are producing an abundance of energy from a diverse number of 
sources. Not only are we becoming energy independent, we are 
also exporting to our friends and our allies and our partners 
as well.
    Just last year we became a net exporter of natural gas. 
Today we are exporting LNG (liquefied natural gas) to 27 
countries on five continents. The Energy Information 
Administration reports that the U.S. LNG exports quadrupled 
from 2016 to 2017. But, in addition to this progress, something 
else has happened. Our environment has become better. Even as 
our economy expanded and energy development reached new heights 
from 2005 to 2017 we lead the world in reducing carbon 
emissions cutting them by 14 percent over that period of time. 
And as I speak, we continue our world-leading performance in 
this arena.
    The lesson is clear, we don't have to choose between 
growing our economy and caring for our environment. By 
embracing innovation we can benefit both. That's the heart of 
the new energy realism doctrine that I recently described.
    To drive further energy innovations we are requesting 
continued funding of our energy program offices as well as more 
funding for research in fossil fuels and nuclear power 
including advanced modular reactors.
    Now, if we have a duty to advance domestic energy 
production, we also have a duty to ensure that our energy 
actually gets delivered without interruption. My great focus as 
the Secretary of Energy is to ensure that our grid is not only 
reliable, but that it's also resilient. That's why last year I 
promised to step up our efforts to protect and maintain 
America's energy infrastructure in the face of all hazards.
    The devastation caused by the 2017 hurricanes and the 
impacts of the electricity sector highlighted the importance of 
improving grid reliability and resilience in the face of 
natural disasters, but we also must protect our energy sector 
from man-made attacks, including cyber attacks. So this year we 
have requested funding increases to strengthen cyber security 
as well as the Department's cyber defenses. We are establishing 
a new office of cyber security, energy security, emergency 
response, which will be lead by a new assistant secretary. We 
must also ensure that when these threats materialize, we have a 
full diversity of fuels to keep our electric grid running. Our 
energy security, our national security depends on a diversity 
of fuel sources that can produce electricity when Americans 
want it and where they need it.
    Technology will help us solve these challenges since much 
of our Nation's greatest technology breakthroughs affecting 
energy have come through our national labs. We need to ensure 
their continued ability to innovate. Fiscal year 2017, our 
national labs won 33 of the prestigious R&D (research and 
development) 100 Awards, including technologies regarding new 
materials, protecting our environment, incorporating renewable 
energy, reliability on the electric grid and sophisticated 
cyber security tools.
    These accomplishments, meaning the people driving our 
innovation agenda and imploring them to reach even higher are 
some of the reasons I've committed to visit each of our 
national labs. I'm especially proud of the work that several of 
our labs, including Oak Ridge, are doing to harness the power 
of their world class supercomputers to increase our ability to 
provide precision medicine. Senator, I mentioned that to you as 
we walked in earlier, needed to improve the health of our 
veterans, our first responders, athletes, moms whose daughter 
play soccer for instance, who have had concussions that this 
committee is well aware of the value of our national labs and 
the promise they bring to our Nation's future.
    I want to thank you and your colleagues for the leadership 
and commitment to advancing science.
    And finally, let me touch on one of our other key 
objectives laid out last year and that is to accelerate efforts 
to develop Exascale computing systems. This year we requested 
nearly a 25 percent increase for this vital area in order to 
keep the United States at the forefront of supercomputing.
    We recently announced a major RFP (Request for Proposal) to 
begin the second phase of our efforts to regain leadership in 
supercomputing. The machines that we will build and deploy will 
be 50 to 100 times faster than any of our current 
supercomputers. They will be housed at Oregon, Oak Ridge and 
Lawrence Livermore National labs. They hold immense potential 
to help us answer the most vexing questions in science, 
medicine and national security.
    Chairman Alexander, in my first year I've gotten to see the 
depth and the breadth of the DOE enterprise and I could not be 
prouder to lead these men and women. I visited 13 of the 17 
national labs, including, Senator Feinstein, as I shared with 
you last week, all four of those in the Bay area. I visited 
WIPP (Waste Isolation Pilot Plant), matter of national security 
site, Pentax, Y-12, the Kansas City National Security Complex, 
McNary Dam, and of course, Hanford.
    At each site one thing is made abundantly clear to me in 
that those who work for the Department of Energy are dedicated, 
they are patriotic and they are committed to serving the 
American people.
    In the end, it's you, the People's elected representatives, 
who will decide how to best allocate the resources of our hard-
working taxpayers. My commitment to you is that we will do our 
best to use those resources wisely and in the pursuit of the 
vital goals that I've outlined.
    Thank you, Mr. Chairman. I'll be happy to attempt to answer 
any questions.
    Senator Alexander. Thank you, Mr. Secretary.
    We have been joined by Senator Murray and Tester and 
Kennedy.
    We will now begin a round of questions if your schedules 
permit that. We will go ahead with a round of 5 minute----
    Secretary Perry. Yes, sir.
    Senator Alexander [continuing]. Questions.
    Thank you for your testimony. Without objection we will 
include your full written statement as part of the record as 
well as the written statement of Administrator Gordon-Hagerty 
on behalf of the National Nuclear Security Administration.
    [The statements follow:]
            Prepared Statement of Secretary Hon. Rick Perry
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, it is an honor to appear before you today to discuss the 
President's fiscal year 2019 Budget Request for the Department of 
Energy (``the Department'' or ``DOE'').
    It is a privilege and an honor to serve as the 14th Secretary of 
Energy.
    This budget represents a request to the American people through 
their representatives in Congress to fund the priorities of this 
Department.
    As such, it represents a commitment from all of us at DOE--that we 
will honor the trust of our citizens with stewardship, accountability 
and service.
    As Ronald Reagan reminded us in his First Inaugural, ``We are a 
nation that has a government--not the other way around.''
    When I appeared before this Committee last year, I committed to 
modernize our nuclear weapons arsenal, protect our energy 
infrastructure from cyber and other attacks, achieve exascale 
computing, advance strong domestic energy production, and address 
obligations regarding nuclear waste management and the Nation's nuclear 
legacy.
    This fiscal year 2019 $30.6 billion budget request for the 
Department of Energy (``Budget'') delivers on these commitments.
    The Department's world-leading science and technology enterprise 
generates the innovations to fulfill our mission. Through our 17 
National Laboratories, we engage in cutting-edge research that expands 
the frontiers of scientific knowledge and generates new technologies to 
address our greatest challenges.
    Our National Laboratories are doing outstanding work in many areas, 
and they have a rich history of innovation that has bettered the lives 
of millions across the globe. For example, in fiscal year 2017, the 
National Laboratories won 33 of the prestigious R&D 100 Awards, 
including technologies regarding new materials, protecting our 
environment, incorporating renewable energy reliably on to our electric 
grid, and sophisticated cybersecurity tools. These are but a few 
examples of the work the National Laboratories have done just last year 
to push the boundaries of research, development, and commercialization. 
I have had the opportunity to visit many of the Laboratories over the 
past year, and witness first-hand this outstanding work done by the 
dedicated workforce across the Nation.
    I am especially proud of how our National Laboratories, in working 
with the Department of Veteran's Affairs and other Federal agencies, 
universities, doctors, and researchers, are harnessing the power of our 
world-class supercomputers to improve the health of our veterans. This 
work is part of DOE's proud legacy in the biosciences, and as the 
initiator of the Human Genome Project.
    This Budget proposes over $12 billion in early stage research and 
development (R&D) that will focus the intellectual prowess of our 
scientists and engineers on the development of technologies that the 
ingenuity and capital of America's entrepreneurs and businesses can 
convert into commercial applications and products to improve the lives 
and security of all Americans.
Restoring the Nuclear Security Enterprise
    The security of the United States and its allies is one of our 
primary DOE missions.
    The Budget fulfills the President's vision of rebuilding and 
restoring our Nation's security through robust investments in the 
Department's nuclear security mission. The Budget provides $15.1 
billion for the National Nuclear Security Administration (NNSA), $2.2 
billion or 16.7 percent above the fiscal year 2017 enacted level.
    The Request makes necessary investments consistent with the 
February 2018 Nuclear Posture Review (NPR) to modernize and rebuild a 
nuclear force and nuclear security enterprise; prevent, counter, and 
respond to nuclear proliferation and terrorism threats; and provide 
safe, reliable, and long-term nuclear propulsion to the Nation's Navy.
    The Budget includes $11.0 billion for Weapons Activities. This $1.8 
billion increase over the fiscal year 2017 enacted level supports 
maintaining the safety, security, and effectiveness of the nuclear 
stockpile; continuing the nuclear modernization program; and 
modernizing NNSA's nuclear security infrastructure portfolio in 
alignment with the NPR.
    The Budget includes $1.9 billion for our ongoing Life Extension 
Programs (LEP) and Major Alterations, a $580 million increase. Funding 
for the W76-1 warhead LEP supports the Navy and will keep the LEP on 
schedule and on budget to complete production in fiscal year 2019. An 
increase of $178 million for the B61-12 LEP will keep us on schedule to 
deliver the First Production Unit (FPU) in fiscal year 2020 to 
consolidate four variants of the B61 gravity bomb and improve the 
safety and security of the oldest weapon system in our nuclear arsenal.
    The Budget also supports the Air Force's Long-Range Stand-Off 
program through an increase of $435 million from fiscal year 2017 
enacted for the W80-4 LEP, to deliver the first production unit in 
fiscal year 2025 of the cruise missile warhead. We also increase 
funding by $23 million for the W88 Alteration 370 to provide the 
scheduled first production unit in fiscal year 2020. The request 
includes $53 million for a replacement for the W78, one of the oldest 
warheads in the stockpile, by 2030.
    The Budget for Weapons Activities also increases investments to 
modernize our nuclear infrastructure. For example, we include $703 
million, a $128 million increase from fiscal year 2017, for 
construction of the Uranium Processing Facility needed to replace 
deteriorating facilities at the Y-12 National Security Complex, as well 
as $27 million for a Tritium Production Capability at Savannah River 
and $19 million for a Lithium Production Capability at Y-12.
    The Weapons Activities Budget request also includes $163 million, a 
$68 million increase from fiscal year 2017 enacted, for NNSA 
collaboration with the Office of Science on the development of exascale 
computer systems, which I address below.
    In the NNSA's Naval Reactors program, the Department has the 
ongoing responsibility to provide militarily effective nuclear 
propulsion plants for Navy vessels and to ensure their safe, reliable 
and long-lived operation. The Budget provides $1.8 billion to support 
the safe and reliable operation of the Navy's nuclear-powered fleet and 
continuation of the Columbia-class submarine program, refueling of the 
Land-Based Prototype reactor, and the Spent Fuel Handling 
Recapitalization Project.
    Today, over 45 percent of the Navy's major combatants are nuclear 
powered. DOE's role in propulsion plants, spent fuel handling, and 
recapitalization is critical to the Navy's ability to conduct its 
mission around the globe.
    The Budget also includes $1.9 billion for the Defense Nuclear 
Nonproliferation (DNN) program to reduce global threats from nuclear 
weapons. This critical national security program prevents the spread of 
nuclear and radiological materials, advances technologies that detect 
nuclear and radiological proliferation worldwide, and eliminates or 
secures inventories of surplus materials and infrastructure usable for 
nuclear weapons.
    The Budget continues termination activities for the Mixed Oxide 
Fuel Fabrication Facility project proposed in the fiscal year 2018 
Request, providing $220 million for use toward an orderly and safe 
closure of the project. The Budget also includes $59 million for the 
continuation of preliminary design and the initiation of long-lead 
procurements for the Surplus Plutonium Disposition project in support 
of the dilute and dispose strategy.
    The Budget provides $319 million for Nuclear Counterterrorism and 
Incident Response, $47 million above fiscal year 2017 enacted, to work 
domestically and around the world to improve our ability to respond to 
radiological or nuclear incidents, in conjunction with other agencies 
in a broader U.S. Government effort.
    Finally, the Budget includes $423 million for the Federal workforce 
at the NNSA. This $35 million increase is essential to ensuring our 
world-class workforce of dedicated men and women can effectively 
oversee NNSA's critical national security missions.
Securing Against Cyber Threats
    Among the most critical missions at the Department is to develop 
science and technology that will ensure Americans have a resilient 
electric grid and energy infrastructure. Protecting this infrastructure 
means it has to be resilient and secure to defend against the evolving 
threat of cyber and other attacks.
    Unfortunately, cyberattacks pose an ever-increasing threat to the 
Nation's networks, data, facilities, and infrastructure. A reliable and 
resilient power grid is critical to U.S. economic competiveness and 
leadership, and to the safety and security of the Nation. We need to 
understand the increasing and evolving natural and man-made threats and 
develop the tools to respond to those threats across our energy 
infrastructure.
    The Department is the sector-specific agency for the energy sector, 
and therefore, is the lead Federal agency for the Emergency Support 
Function #12 that partners with the energy sector to ensure 
infrastructure security and resilience and to coordinate response and 
recovery. To elevate the Department's focus on energy infrastructure 
protection, the Budget Request splits the Office of Electricity 
Delivery and Energy Reliability, which totals $157 million, into two 
offices. Doing so will increase focus on grid reliability in the Office 
of Electricity Delivery (OE) and cybersecurity in the Office of 
Cybersecurity, Energy Security, and Emergency Response (CESER).
    CESER will allow more coordinated preparedness and response to 
emerging cyber and physical threats and natural disasters and support 
the Department's national security responsibilities. To work toward 
this critical objective, the Budget provides $96 million for the CESER 
office to develop tools needed to protect the U.S. energy sector 
against threats and hazards, mitigate the risks and the extent of 
damage from cyberattacks and other disruptive events, and improve 
resilience through the development of techniques for more rapid 
restoration of capabilities.
    CESER will work in an integrated manner with private industry, as 
well as Federal, State, and Local jurisdictions and other DOE offices, 
to enable industry to enhance the resilience (the ability to withstand 
and quickly recover from disruptions and maintain critical function) 
and security (the ability to protect system assets and critical 
functions from unauthorized and undesirable actors) of the U.S. energy 
infrastructure.
    Also, in fiscal year 2019, the Office of Nuclear Energy's budget 
includes $5 million for the Nuclear Energy Enabling Technologies (NEET) 
Crosscutting Technology Development (CTD) program to expand its nuclear 
reactor cybersecurity research to support development of intrusion-
resistant systems and practices. Research will be conducted in four 
areas: cyber risk management, secure architectures, modeling and 
simulation, and supply chain cyber security assurance. NEET-CTD will 
also perform simulated cyber-attacks against existing and next 
generation control system architectures to verify attack difficulty and 
control efficacy, methods, and metrics.
    Securing against cyber threats means we must also protect against 
threats to the Department's own infrastructure in science, technology, 
and nuclear security. This Budget takes major steps to safeguard DOE's 
enterprise-wide assets against cyber threats. The Budget provides 
funding to secure our own networks, and increases funding for the Chief 
Information Officer by $16 million from the fiscal year 2017 enacted 
level to modernize infrastructure and improve cybersecurity across the 
DOE IT enterprise. Funding for cybersecurity in the National Nuclear 
Security Administration is increased to $185 million to enhance 
security for our nuclear security enterprise. In the Environmental 
Management program, we provide $43 million for cybersecurity to ensure 
the security at seven cleanup sites. This Budget provides the resources 
we require to secure our systems and our infrastructure.
Improving Grid Resilience
    As we protect our energy infrastructure from cyber threats, we also 
must improve resilience and reliability of the Nation's electricity 
system. The Budget provides $61 million for Electricity Delivery to 
support transmission system resource adequacy and generation diversity, 
move forward with new architecture approaches for the transmission and 
distribution system to enhance security and resilience, and advance 
energy storage. The Budget supports research and development at DOE's 
National Laboratories to develop technologies that strengthen, 
transform, and improve energy infrastructure so that consumers have 
access to reliable and secure sources of energy.
Advancing Exascale and Quantum Computing
    As I discussed last year, the Department's leadership in developing 
and building the world's fastest computers has faced increasingly 
fierce global competition over the last decade. Maintaining the 
Nation's global primacy in high-performance computing is more critical 
than ever for our national security, our continuing role as a science 
and innovation leader, and our economic prosperity.
    The Budget includes $636 million to accelerate development of an 
exascale computing system, including $473 million in the Office of 
Science (Science) and $163 million in NNSA. This unprecedented 
investment, which is $376 million--or 145 percent--above the fiscal 
year 2017 enacted level, reflects the Department's plan to deliver an 
exascale machine for the Office of Science in 2021 and a second machine 
with a different architecture by 2022.
    To achieve these goals, the Science/NNSA partnership will focus on 
hardware and software technologies needed to produce an exascale 
system, and the critical DOE applications needed to use such a 
platform. This world-leading exascale program will bolster our national 
security by supporting the nuclear stockpile, while also supporting the 
next generation of scientific breakthroughs not possible with today's 
computing systems.
    We will not, however, satisfy our need for computing advances with 
the achievement of exascale computing alone. The fiscal year 2019 
Budget Request also includes $105 million in quantum computing to 
address the emerging urgency of building our competency and 
competitiveness in the developing area of quantum information science. 
This early-stage, fundamental research will concentrate on accelerating 
progress toward application of quantum computing techniques and quantum 
sensing to grand challenge science questions.
Addressing the Imperative of Nuclear Waste Management
    As I mentioned to this Committee last year, we must move ahead in 
fulfilling the Federal Government's responsibility to dispose of the 
Nation's nuclear waste. The Budget includes $120 million, including $30 
million in defense funds, to resume licensing for the nuclear waste 
repository at Yucca Mountain and implement a robust interim storage 
program.
    The Budget devotes $110 million for DOE to support the Nuclear 
Regulatory Commission (NRC) licensing proceeding for the nuclear waste 
repository at Yucca Mountain, including funding for technical, 
scientific, legal and other support.
    In addition, the Budget includes $10 million to implement a robust 
interim storage program to ensure earlier acceptance of spent nuclear 
fuel and accelerate removal from sites in 39 States across the country. 
Interim storage capability also adds flexibility to the system that 
will move materials from sites across the country to its ultimate 
disposition.
    By restarting the long-stalled licensing process for Yucca Mountain 
and committing to establishing interim storage capability for near-term 
acceptance of spent nuclear fuel, our Budget demonstrates the 
Administration's commitment to nuclear waste management and will help 
accelerate fulfillment of the Federal Government's obligations to 
address nuclear waste, enhance national security, and reduce future 
burdens on taxpayers. This also will increase public confidence in the 
safety and security of nuclear energy, thus helping nuclear energy to 
remain a significant contributor to the country's energy needs for 
generations to come.
Fulfilling Legacy Cleanup Responsibilities
    The Budget also includes $6.6 billion for Environmental Management 
(EM), $182 million above the fiscal year 2017 enacted level, to address 
its responsibilities for the cleanup and disposition of excess 
facilities, radioactive waste, spent nuclear fuel, and other materials 
resulting from five decades of nuclear weapons development and 
production and Government-sponsored nuclear energy research.
    To date, EM has completed cleanup activities at 91 sites in 30 
States and Puerto Rico, and is responsible for cleaning up the 
remaining 16 sites in 11 States--some of the most challenging sites in 
the cleanup portfolio.
    The Budget continues funding of $150 million to address specific 
high-risk contaminated excess facilities at the Y-12 National Security 
Complex and the Lawrence Livermore National Laboratory.
    The Budget includes $1.4 billion for the Office of River Protection 
at the Hanford Site, for continued work at the Hanford Tank Farms and 
to make progress on the Waste Treatment and Immobilization Plant. This 
budget will continue progress toward important cleanup required by the 
Consent Decree and Tri-Party Agreement to include a milestone to 
complete hot commissioning of the Low Activity Waste Facility by 
December 31, 2023. The Budget also includes $747 million to continue 
cleanup activities at Richland, including continued K-Area 
decontamination and decommissioning remediation and the K-West Basin 
sludge removal project. For Savannah River, the Budget provides $1.7 
billion, $287 million above enacted fiscal year 2017, to support 
activities at the site. This will include the Liquid Tank Waste 
Management Program, completing commissioning and beginning operation of 
the Salt Waste Processing Facility, continued construction of the 
Saltstone Disposal Unit #7, a start to construction of the Saltstone 
Disposal Units #8/9, and support for facilities that receive and store 
nuclear materials.
    The Waste Isolation Pilot Plant (WIPP) is essential for the 
disposition of transuranic defense-generated waste across the DOE 
complex, and the Budget provides $403 million to safely continue waste 
emplacement at WIPP. The Budget Request will continue WIPP operations, 
including waste emplacements, shipments, and maintaining enhancements 
and improvements, and progress on critical infrastructure repair/
replacement projects, including $84 million for the Safety Significant 
Confinement Ventilation System and $1 million for the Utility Shaft 
(formerly Exhaust Shaft). These steps will increase airflow in the WIPP 
underground for simultaneous mining and waste emplacement operations.
    The Budget includes $359 million to continue cleanup projects at 
the Idaho site, such as the Integrated Waste Treatment Unit, and to 
process, characterize, and package transuranic waste for disposal at 
offsite facilities. It provides $409 million for Oak Ridge to continue 
deactivation and demolition of remaining facilities at the East 
Tennessee Technology Park, continue preparation of Building 2026 to 
support processing of the remaining U-233 material at the Oak Ridge 
National Laboratory, and support construction activities for the 
Outfall 200 Mercury Treatment Facility at the Y-12 National Security 
Complex.
    For Portsmouth, the Budget includes $415 million, $33 million above 
fiscal year 2017 enacted, to continue progress on the deactivation and 
decommissioning project at the Portsmouth Gaseous Diffusion Plant, safe 
operation of the Depleted Uranium Hexafluoride Conversion Facility, and 
construction activities at the On-Site Waste Disposal facility. At 
Paducah, the Budget includes $270 million to continue ongoing 
environmental cleanup and depleted uranium hexafluoride (DUF6) 
conversion facility operations at the Paducah site. In addition, the 
fiscal year 2019 Budget Request supports activities to continue the 
environmental remediation and further stabilize the gaseous diffusion 
plant.
    Together, these investments for Environmental Management will make 
significant progress in fulfilling our cleanup responsibilities while 
also starting to address our high-risk excess facilities at NNSA sites.
Focusing Priorities on Core Missions
    The Budget continues to focus the Department's energy and science 
programs on early-stage research and development at our National 
Laboratories to advance American primacy in scientific and energy 
research in an efficient and cost- effective manner.
    Also, in line with Administration priorities, the Budget terminates 
the Advanced Research Projects Agency-Energy, known as ARPA-E, and the 
Department's Loan Programs, while maintaining necessary Federal staff 
to oversee existing awards and loans. Termination of these programs 
will save over $300 million in fiscal year 2019 alone while 
significantly reducing financial risk to the taxpayer moving forward.
Advancing American Energy Dominance
    The Budget requests $2.1 billion for the applied energy programs. 
Within these offices, the fiscal year 2019 Budget focuses resources on 
early-stage, cutting-edge R&D conducted by the scientists and engineers 
at our 17 National Laboratories who continually develop the next great 
innovations that can transform society and foster American economic 
competitiveness and then on transitioning these breakthroughs to the 
private marketplace.
    The Budget consolidates programs focused on bringing technologies 
to the market in the Office of Technology Transitions, requesting a 23 
percent increase from fiscal year 2017. Through concerted effort and 
coordination with our labs, this will reduce costs to the taxpayer 
while at the same time providing a robust technology transfer program 
to transfer breakthroughs from the National Laboratories to the private 
sector.
            Nuclear Energy
    Nuclear energy provides 20 percent of our electricity baseload, and 
60 percent of our carbon-free generated electricity. The Budget 
provides $757 million for the Office of Nuclear Energy to continue 
innovating new and improved nuclear energy technologies. The budget 
focuses funding on early-stage research and development, such as the 
Nuclear Energy Enabling Technologies program, that enables the research 
and development of innovative and crosscutting nuclear energy 
technologies to resolve fundamental nuclear technology challenges.
    The fiscal year 2019 Budget includes $163 million for the Reactor 
Concepts Research, Development and Demonstration program. Within this 
total, $128 million is for early-stage R&D on advanced reactor 
technologies, including $54 million for a new Advanced Small Modular 
Reactor R&D subprogram. This new subprogram is a one-time effort to 
fund cost-shared early-stage design-related technical assistance and 
R&D, the results of which are intended to be widely applicable and 
employed by nuclear technology development vendors for the purpose of 
accelerating the development of their advanced SMR designs. The Budget 
also provides $15 million within Reactor Concepts for early-stage R&D 
and pre-conceptual design work related to Versatile Advanced Fast Test 
Reactor concept.
    Within the Fuel Cycle Research and Development program, the Budget 
provides $40 million to support the development of one or more light 
water reactor fuel concepts with significantly enhanced accident 
tolerance.
    Finally, the Budget for Nuclear Energy also supports robust 
safeguards and security funding of $136 million--a $7 million 
increase--for protection of our nuclear energy infrastructure and 
robust infrastructure investments at INL facilities.
            Fossil Energy Research and Development
    The Fossil Energy Research and Development (FER&D) program advances 
transformative science and innovative technologies which enable the 
reliable, efficient, affordable, and environmentally sound use of 
fossil fuels. Fossil energy sources currently constitute over 81 
percent of the country's total energy use and are critical for the 
Nation's security, economic prosperity, and growth. The fiscal year 
2019 Budget focuses $502 million on cutting-edge fossil energy research 
and development to secure energy dominance, further our energy 
security, advance strong domestic energy production, and support 
America's coal industry through innovative clean coal technologies.
    FER&D will support early-stage research in advanced technologies, 
such as materials, sensors, and processes, to expand the knowledge base 
upon which industry can improve the efficiency, flexibility, and 
resilience of the existing fleet of coal fired power plants. The 
request also focuses funding on early-stage research that enables the 
next generation of high efficiency and low emission coal fired power 
plants that can directly compete with other sources of electricity in 
the market and provide low cost reliable power 24/7.
    Funding is also provided to support competitive awards with 
industry, National Laboratories and academia focused on innovative 
early-stage R&D to improve the reliability, availability, efficiency, 
and environmental performance of advanced fossil-based power systems. 
For example, the Advanced Energy Systems subprogram will focus on the 
following six activities: (1) Advanced Combustion/Gasification Systems, 
(2) Advanced Turbines, (3) Solid Oxide Fuel Cells, (4) Advanced Sensors 
and Controls, (5) Power Generation Efficiency, and (6) Advanced Energy 
Materials. While the primary focus is on coal-based power systems, 
improvements to these technologies will result in spillover benefits 
that can reduce the cost of converting other carbon-based fuels, such 
as natural gas, biomass, or petroleum coke into power and other useful 
products in an environmentally- sound manner.
            Energy Efficiency and Renewable Energy
    The Energy Efficiency and Renewable Energy budget funds $696 
million to maintain America's leadership in transformative science and 
emerging energy technologies in sustainable transportation, renewable 
power, and energy efficiency. Knowledge generated by early-stage R&D 
enables U.S. industries, businesses and entrepreneurs to develop and 
deploy innovative energy technologies and gives them the competitive 
edge needed to excel in the rapidly changing global energy economy.
    Energy storage is an important area of focus, and the Request 
includes $36 million for battery R&D as well as $90 million for a new 
``Beyond Batteries'' R&D initiative. As part of grid modernization 
efforts, ``Beyond Batteries'' considers energy storage holistically, 
and focuses on advances in controllable loads, hybrid systems, and new 
approaches to energy storage, which are essential to increasing the 
reliability and resiliency of our energy systems.
    Advances in these areas, as well as in battery technologies, will 
allow for loads to be combined with generation from all sources to 
optimize use of existing assets to provide grid services, and increase 
grid reliability. The fiscal year 2019 also invests in advanced 
combustion engines, and new science and technology for developing 
biofuels. The Budget funds research into the underpinnings of future 
generations of solar photovoltaic technology, into the design and 
manufacturing of low-specific power rotors for tall wind applications, 
and on wind energy grid integration and infrastructure challenges.
    The Budget also funds early-stage R&D for advanced manufacturing 
processes and materials technologies. These efforts, combined with the 
research that leverages the unique high-performance computing assets in 
the National Laboratories, can drive the breakthroughs that will 
promote economic growth and manufacturing jobs in the United States.
Leading World-Class Scientific Research
    The Department of Energy is the Nation's largest Federal supporter 
of basic research in the physical sciences, and the President's fiscal 
year 2019 Budget provides $5.4 billion for the Office of Science to 
continue and strengthen American leadership in scientific inquiry. By 
focusing funding on early-stage research, this Budget will ensure that 
the Department's National Laboratories continue to be the backbone of 
American science leadership by supporting cutting-edge basic research, 
and by building and operating the world's most advanced scientific user 
facilities--which will be used by over 22,000 researchers in fiscal 
year 2019.
    We provide $899 million for Advanced Scientific Computing Research, 
an increase of $252 million above the fiscal year 2017 enacted level. 
This funding will continue supporting our world-class high-performance 
computers that make possible cutting- edge basic research, while 
devoting $472 million in the Office of Science to reflect the 
Department's plan to achieve of exascale computing by 2021. This 
focused effort will drive the innovations necessary for computing at 
exascale speeds, resulting in computing systems at unprecedented speeds 
at Argonne National Laboratory in 2021 and Oak Ridge National 
Laboratory in 2022. The fiscal year 2019 Request also supports quantum 
computing R&D and core research in applied mathematics and computer 
science, and high-performance computer simulation and modeling.
    The Budget also provides $1.8 billion for Basic Energy Sciences, 
supporting core research activities in ultrafast chemistry and 
materials science and the Energy Frontier Research Centers. We will 
continue construction of the Linac Coherence Light Source-II at SLAC 
National Accelerator Laboratory and the Advanced Photon Source Upgrade 
at the Argonne National Laboratory, and initiate the Advanced Light 
Source Upgrade project at the Lawrence Berkeley National Laboratory, 
and the Linac Coherence Light Source-II High Energy project at SLAC. 
The operations of the light sources across the DOE science complex and 
supporting research across the Nation will ensure our continued world 
leadership in light sources and the science they make possible.
    The Budget also provides $770 million for High Energy Physics, 
including $113 million for construction of the Long Baseline Neutrino 
Facility and Deep Underground Neutrino Experiment at Fermilab, $63 
million above the enacted fiscal year 2017 level. We will continue to 
fund ongoing major items of equipment projects, and initiate three new 
projects at the Large Hadron Collider, the High Luminosity Large Hadron 
Collider Accelerator Project, and the High Luminosity ATLAS and CMS 
detector upgrade projects. By supporting the highest priority 
activities and projects identified by the U.S. high energy physics 
community, this program will continue cutting-edge pursuit to 
understand how the universe works at its most fundamental level.
    The Budget for the Office of Science provides $340 million for 
Fusion Energy Sciences, including $265 million for domestic research 
and fusion facilities and $75 million for the ITER project. For Nuclear 
Physics, the budget provides $600 million to discover, explore, and 
understand nuclear matter, including $75 million for continued 
construction of the Facility for Rare Isotope Beams and operations of 
facilities, including the newly-upgraded Continuous Electron Beam 
Accelerator Facility. For Biological and Environmental Research, the 
Budget includes $500 million to support foundational genomic sciences, 
including the Bioenergy Research Centers and to focus on increasing the 
sensitivity and reducing the uncertainty of earth and environmental 
systems predictions.
Strategic Petroleum Reserve
    In addition to our nuclear security responsibilities, the 
Department of Energy ensures the Nation's energy security. The 
Strategic Petroleum Reserve (SPR), one component of that effort, 
protects the U.S. economy from disruptions in critical petroleum 
supplies and meets the U.S. obligations under the International Energy 
Program. The Budget includes $175.1 million, $47.5 million below the 
fiscal year 2017 enacted level, to support the Reserve's operational 
readiness and drawdown capabilities. The Request also includes a 
drawdown and sale of up to 1 million barrels of crude oil from the SPR 
to provide funding for Congressionally-mandated crude oil sales and 
emergency drawdown operations.
    The Budget continues the sale of SPR oil for the Energy Security 
and Infrastructure Modernization Fund authorized by the Bipartisan 
Budget Act of 2015 to support an effective modernization program for 
the SPR.
    Finally, as the Northeast Gasoline Supply Reserve (NGSR) is 
operationally ineffective and not cost-efficient as a regional product 
reserve, the President's Budget proposes to liquidate the NGSR and sell 
its one million barrels of refined petroleum product in fiscal year 
2019, resulting in an estimated $77 million in receipts.
Power Marketing Administrations
    Finally, the Budget includes $77 million for the Power Marketing 
Administrations (PMAs). The Budget proposes the sale of the 
transmission assets of the Western Area Power Administration (WAPA), 
the Bonneville Power Administration (BPA), and the Southwestern Power 
Administration (SWPA) and to reform the laws governing how the PMAs 
establish power rates to require the consideration of market based 
incentives, including whether rates are just and reasonable. The Budget 
also proposes to repeal the $3.25 billion borrowing authority for WAPA 
authorized by the American Recovery and Reinvestment Act of 2009.
Conclusion
    In conclusion, I reaffirm my commitment to ensure that the 
Department of Energy, along with its national laboratories, will 
continue to support the world's best enterprise of scientists and 
engineers who create innovations to drive American prosperity, security 
and competitiveness. The President's fiscal year 2019 Budget Request 
for the Department of Energy positions us to take up that challenge and 
delivers on the high-priority investments I proposed to you last year.
    As we move forward over the coming weeks and months, I look forward 
to working with you and your colleagues in Congress on the specific 
programs mentioned in this testimony and throughout the Department. 
Congress has an important role in the path forward on spending 
decisions for the taxpayer, and I will, in turn, ensure DOE is run 
efficiently, effectively, and we accomplish our mission driven goals. 
Thank you, and I look forward to answering your questions.
                                 ______
                                 
           Prepared Statement of Hon. Lisa E. Gordon-Hagerty
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2019 budget request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). NNSA deeply 
appreciates the Committee's strong support for the nuclear security 
mission and for the extraordinary people and organizations that are 
responsible for its execution.
    The President's fiscal year 2019 budget request for NNSA is $15.1 
billion, an increase of $1.2 billion or 8.3 percent over the fiscal 
year 2018 request. The request represents approximately 50 percent of 
DOE's total budget. This budget request demonstrates the 
Administration's strong support for NNSA and reinforces the recently 
released Nuclear Posture Review (NPR) and National Security Strategy 
(NSS). We will continue to work with the Department of Defense (DoD) to 
determine the resources, time, and funding required to address policies 
laid out in the NPR, including the potential low yield ballistic 
missile warhead, sea launched cruise missile, and B83-1 gravity bomb. 
We live in an evolving international security environment that is more 
complex and demanding than any since the end of the Cold War, which 
necessitates a national commitment to maintain modern and effective 
nuclear forces and infrastructure. To remain effective, however, 
recapitalizing our Cold War legacy nuclear forces is critical.
    NNSA's enduring missions remain vital to the national security of 
the United States: maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; and 
providing nuclear propulsion for the U.S. Navy's fleet of aircraft 
carriers and submarines. The President's fiscal year 2019 budget 
request is reflective of this Administration's strong support for NNSA 
and ensures that U.S. nuclear forces are modern, robust, flexible, 
resilient, ready, and appropriately tailored to deter 21st-century 
threats and reassure America's allies.
    Attracting, training, and retaining a skilled and experienced 
workforce is critical to NNSA's ability to accomplish its diverse 
missions. NNSA's dedicated and highly talented cadre of Federal 
employees and Management and Operating (M&O) contract partners must be 
supported with the tools necessary to support the complex and 
challenging responsibilities found only within NNSA's nuclear security 
enterprise. NNSA's infrastructure is in a brittle state that requires 
significant and sustained investments over the coming decade to 
correct. There is no margin for further delay in modernizing NNSA's 
scientific, technical, and engineering capabilities, and recapitalizing 
our infrastructure needed to produce strategic materials and components 
for U.S. nuclear weapons.
    The fiscal year 2019 budget request also reflects the close 
partnerships between NNSA and other Federal departments and agencies. 
NNSA collaborates with DoD to meet military requirements, support the 
Nation's nuclear deterrent, and modernize the nuclear security 
enterprise. NNSA also partners with a range of Federal agencies, to 
prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism.
    NNSA is mindful of its obligation to be responsible stewards of the 
resources entrusted by Congress and the American taxpayers. Our fiscal 
year 2019 budget request is the result of a disciplined process to 
prioritize funding for validated requirements as designated by the 
Administration and sets the foundation to implement policies from the 
NPR and NSS.
Weapons Activities Appropriation
    The fiscal year 2019 budget request for the Weapons Activities 
account is $11.0 billion, an increase of $777.7 million or 7.6 percent 
over fiscal year 2018 request levels. Nuclear deterrence remains the 
bedrock of America's national security. Given the criticality of 
effective U.S. nuclear deterrence to the safety of the American people, 
allies, and partners, there is no doubt that NNSA's sustainment and 
replacement program should be regarded as both necessary and 
affordable. The programs funded in this account support the Nation's 
current and future defense posture and the associated nationwide 
infrastructure of science, technology, and engineering capabilities.
    The Weapons Activities account supports the maintenance and 
refurbishment of nuclear weapons to maintain safety, security, and 
reliability; investments in scientific, engineering, and manufacturing 
capabilities to certify the enduring nuclear weapons stockpile; and the 
fabrication of nuclear weapon components. This account also includes 
investments in enterprise-wide infrastructure sustainment activities, 
physical and cybersecurity activities, and the secure transportation of 
nuclear materials.
            Maintaining the Stockpile
    This year, the work of the science-based Stockpile Stewardship 
Program again supported the Secretaries of Energy and Defense in 
certifying to the President for the 22nd consecutive year, that the 
U.S. nuclear weapons stockpile remains safe, secure, and reliable 
without the need for nuclear explosive testing. This remarkable 
scientific achievement is made possible through the work accomplished 
by NNSA's world-class scientists, engineers, and technicians, and 
through investments in state-of-the-art diagnostic tools, high 
performance computing platforms, and modern facilities.
    For Directed Stockpile Work (DSW), the fiscal year 2019 budget 
request is $4.7 billion, an increase of $689.0 million or 17.3 percent 
over the fiscal year 2018 request. Included within this request is 
funding to support the life extension programs (LEPs) for the W76, B61, 
and W80, and a major alteration of the W88; and advance the ground 
based strategic deterrent, by 1 year to 2019, and investigate 
feasibility of interoperable aspects for other types of warheads. These 
LEPs are aligned with the needs outlined in the NPR and with the 
approved Nuclear Weapons Council strategic plan.
  --W76-1 LEP: The $113.9 million requested for the W76-1 LEP directly 
        supports the sea- based leg of the nuclear triad by extending 
        the service life of the original W76-0 warhead. With continued 
        funding, the W76-1 LEP will remain on schedule and on budget to 
        complete production in fiscal year 2019.
  --B61-12 LEP: NNSA continues to make progress on the B61-12 LEP that 
        will consolidate four variants of the B61 gravity bomb. This 
        LEP will meet military requirements for reliability, service-
        life, field maintenance, safety, and use control while also 
        addressing multiple components nearing end of life in this 
        oldest nuclear weapon in the stockpile. With the $794.0 million 
        requested, NNSA will remain on schedule to deliver the First 
        Production Unit (FPU) of the B61-12 in fiscal year 2020. NNSA 
        is responsible for refurbishing the nuclear explosives package 
        and updating the electronics for this weapon. The Air Force 
        will provide the tail kit assembly under a separate acquisition 
        program. When fielded, the B61-12 gravity bomb will support 
        both Air Force long-range nuclear-capable bombers and dual-
        capable fighter aircraft and bolster central deterrence for the 
        United States while also providing extended deterrence to 
        America's allies and partners.
  --W88 Alteration 370 Program: Currently in the Production Engineering 
        Phase (Phase 6.4), the W88 Alt 370 is on schedule, with FPU 
        planned in December 2019. The budget request for this program, 
        which also supports the sea-based leg of the nuclear triad, is 
        $304.3 million in fiscal year 2019.
  --W80-4 LEP: The current air-launched cruise missile delivers a W80 
        warhead first deployed in 1982. Both the missile and the 
        warhead are well past planned end of life and are exhibiting 
        aging issues. To maintain this vital deterrent capability, NNSA 
        requests $654.8 million in fiscal year 2019, an increase of 
        $255.7 million or 64.1 percent over the fiscal year 2018 
        request to extend the W80 warhead, through the W80-4 LEP, for 
        use in the Air Force's Long Range Stand-Off (LRSO) cruise 
        missile. This funding supports a significant increase in 
        program activity through the Design Definition and Cost Study 
        Phase on a timeline consistent with the DoD's LRSO missile 
        platform modernization schedule.
  --Interoperable Warhead 1 (IW1): The IW1 program will replace one of 
        the oldest warheads in the stockpile, and provide improved 
        warhead security, safety, and use control. To replace the Air 
        Force employed W78 warhead, NNSA is requesting $53.0 million to 
        support the scheduled restart of the feasibility study and 
        design options work suspended in 2014. Technology development 
        efforts are focused on supporting the W78 warhead replacement 
        and investigate the feasibility of interoperable aspects for 
        other types of warheads. To reduce risk, investments will 
        initially be made against technologies that are less than 
        technology readiness level 5.
    Within DSW, the fiscal year 2019 budget request includes $619.5 
million for Stockpile Systems. This program sustains the stockpile in 
accordance with the Nuclear Weapon Stockpile Plan by producing and 
replacing limited-life components such as neutron generators and gas 
transfer systems; conducting maintenance, surveillance, and evaluations 
to assess weapon reliability; detecting and anticipating potential 
weapon issues; and compiling and analyzing information during the 
Annual Assessment process.
    The DSW also requests $1.1 billion for Stockpile Services to 
support the modernization of capabilities to improve efficiency of 
manufacturing operations to meet future requirements. The Stockpile 
Services request supports all DSW operations by funding programmatic 
and infrastructure management, and maintaining the core competencies 
and technologies essential for reliable and operable stewardship 
capabilities.
    Strategic Materials are key for the safety, security, and 
effectiveness of the Nation's nuclear deterrent and are used for 
addressing national security concerns such as nuclear nonproliferation 
and counterterrorism missions. The requested funding is necessary to 
maintain NNSA's ability to produce the nuclear and other strategic 
materials associated with nuclear weapons as well as refurbish and 
manufacture components made from these materials. The program includes 
Uranium Sustainment, Plutonium Sustainment, Tritium Sustainment, 
Domestic Uranium Enrichment (DUE), and other strategic materials, such 
as lithium.
  --Strategic Materials Sustainment: The $218.8 million for the 
        Strategic Materials Sustainment program will develop and 
        implement strategies to maintain the technical base for 
        strategic materials in support of NNSA's nuclear weapons, non-
        proliferation, and naval reactors activities at NNSA's eight 
        sites.
  --Uranium Sustainment: Funding for Uranium Sustainment supports the 
        program to maintain existing enriched uranium capabilities 
        through enhanced equipment maintenance while preparing to phase 
        out mission dependency on Building 9212, a Manhattan Project-
        era production facility at the Y-12 National Security Complex 
        (Y-12) in Oak Ridge, Tennessee. The funding request of $87.2 
        million will assist NNSA in sustaining uranium manufacturing 
        capabilities while accelerating planning and execution of the 
        Building 9212 Exit Strategy to reduce risks associated with 
        transitioning enriched uranium capabilities to the Uranium 
        Processing Facility (UPF) that is under construction.
  --Plutonium Sustainment: The $361.3 million requested for Plutonium 
        Sustainment supports continued progress to meet pit production 
        requirements. The requested funding increase would support 
        efforts to begin the long term plan to develop a capability to 
        produce no fewer than 80 W87-like war reserve pits per year by 
        2030, as directed in the NPR.
  --Tritium Sustainment: The fiscal year 2019 budget request of $205.3 
        million will support the Nation's capacity to provide the 
        tritium necessary for national security requirements. Tritium 
        will be produced by irradiating Tritium Producing Burnable 
        Absorber Rods in designated Tennessee Valley Authority nuclear 
        power plants and by recovering and recycling tritium from gas 
        transfer systems returned from the stockpile at the SRS Tritium 
        Extraction Facility.
  --Lithium Sustainment: The fiscal year 2019 budget request 
        establishes a separate Lithium Sustainment Program of $29.1 
        million that supports a Lithium Bridging Strategy to maintain 
        the production of the Nation's enriched lithium supply in 
        support of the nuclear security mission, DOE's Office of 
        Science, and DHS.
  --Domestic Uranium Enrichment: The DUE program, with a request of 
        $100.7 million in fiscal year 2019, will continue efforts to 
        make available when needed the necessary supplies of enriched 
        uranium for a variety of national security needs.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2019 budget request is $2.0 billion, a decrease of $33.0 million 
or 1.6 percent below the fiscal year 2018 request.
    Increases for the Science Program ($564.9 million) provide 
additional funding to support subcritical experiments for pit reuse and 
advanced diagnostics for subcritical hydrodynamic integrated weapons 
experiments that produce key data for stockpile certifications.
    The Engineering Program ($211.4 million) sustains NNSA's capability 
for creating and maturing advanced toolsets and technologies to improve 
weapon surety and support annual stockpile assessments.
    The Inertial Confinement Fusion Ignition and High Yield Program in 
fiscal year 2019 ($418.9 million) will continue to build upon prior 
accomplishments. These efforts continue to provide key data to reduce 
uncertainty in calculations of nuclear weapons performance and improve 
the predictive capability of science and engineering models in high-
pressure, high-energy, high-density regimes.
    The RDT&E request for fiscal year 2019 includes $703.4 million for 
the Advanced Simulation and Computing (ASC) Program, and continues 
NNSA's program of collaboration with DOE's Office of Science to 
implement DOE's Exascale Computing Initiative. NNSA's ASC Program will 
support stockpile stewardship by developing and deploying predictive 
simulation capabilities for nuclear weapons systems. NNSA is taking 
major steps in high-performance computing by deploying increasingly 
powerful computational capabilities at both Los Alamos National 
Laboratory (LANL) and Lawrence Livermore National Laboratory.
    The Secure Transportation Asset (STA) program provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DoD, and other customer requirements. 
The Office of Secure Transportation has an elite workforce performing 
sensitive and demanding work; agents are among the most highly trained 
and dedicated national security personnel operating within the United 
States. The fiscal year 2019 budget request of $278.6 million continues 
our efforts to modernize and replace the existing fleet of transporters 
and efforts to hire and train an additional 40 agents. The fiscal year 
2019 funding also supports the Safeguards Transporter (SGT) risk 
reduction initiatives to extend the life of the SGT to meet the STA 
mission capacity.
    NNSA's Office of Defense Programs also maintains the vitality of 
the broader nuclear security enterprise that supports other agencies' 
nuclear missions. An important aspect of this effort is investment in 
Laboratory, Site and Plant Directed Research and Development. As 
confirmed by independent reviews, this type of defense research and 
development investment provides basic research funding to foster 
innovation and to attract and retain scientific and technical talent 
and is critical to the long-term sustainment of our national 
laboratories.
            Improving Safety, Operations, and Infrastructure
    NNSA's diverse national security missions are dependent upon the 
safety and reliability of its infrastructure. More than half of NNSA's 
facilities are over 40 years old, and roughly 30 percent date back to 
the Manhattan Project era. If left unaddressed, the condition and age 
of NNSA's infrastructure will put NNSA's missions, the safety of its 
workforce, the public, and the environment at risk. As reaffirmed in 
the NPR, ``An effective, responsive, and resilient nuclear weapons 
infrastructure is essential to the U.S. capacity to adapt flexibly to 
shifting requirements. Such an infrastructure offers tangible evidence 
to both allies and potential adversaries of U.S. nuclear weapons 
capabilities and can help to deter, assure, hedge against adverse 
developments, and discourage adversary interest in arms competition.'' 
The fiscal year 2019 budget request for Infrastructure and Operations 
is $3.0 billion, an increase of $199.6 million or 7.1 percent above the 
fiscal year 2018 request. The fiscal year 2018 National Defense 
Authorization Act provided NNSA and its M&O partners with additional 
flexibility to address the challenges of modernizing the enterprise by 
increasing the minor construction threshold to $20 million. This reform 
supports efforts to address deferred maintenance through 
recapitalization projects that improve the condition and extend the 
design life of structures, capabilities, and systems to meet NNSA's 
nuclear weapons and nonproliferation program needs.
    The fiscal year 2019 budget request for Infrastructure and 
Operations includes $1.1 billion for Line Item Construction projects. 
The requested amount provides the remaining funding of $48.0 million 
for the Albuquerque Facility, supports UPF at Y-12 ($703.0 million), 
and continues the Chemistry and Metallurgy Research Replacement project 
at LANL ($235.1 million). The fiscal year 2019 budget also includes 
$19.0 million in funding to begin the first steps toward the 
construction of a new lithium production facility and $6 million for 
the 138kV Power Transmission System Replacement project to replace and 
upgrade the current power transmission system for the Mission Corridor 
at NNSS. Delivering these projects on budget and schedule is contingent 
upon stable and predictable funding profiles, and the President's 
budget request being supported.
    Many of NNSA's excess process-contaminated facilities will 
ultimately be transferred to DOE's Office of Environmental Management 
for disposition. In the interim, NNSA is focusing on reducing risks 
where possible. For example, NNSA has made critical investments to 
stabilize high-risk process contaminated facilities until ultimate 
disposition, including at Y-12's Alpha 5 and Beta 4 facilities. NNSA 
also remains committed to reducing the risk of non-process contaminated 
facilities by dispositioning facilities where possible. In late 2017, 
NNSA, with the support of Congress, completed the transfer to a private 
developer of over 200 acres of the aging Bannister Federal Complex in 
Kansas City, Missouri, eliminating $300 million of repair needs.
    Later this spring, completion of the Pantex Drummond Office 
Building (formerly known as the Administrative Support Complex) at the 
Pantex Plant outside of Amarillo, Texas will allow NNSA to move nearly 
1,000 employees into a modern, energy efficient workspace. After 
completion of the Pantex Drummond Office building NNSA will also be 
able to dispose of dilapidated, 1950s-era buildings and eliminate 
approximately $20 million in deferred maintenance.
    Defense Nuclear Security's (DNS) fiscal year 2019 budget request is 
$690.6 million, an increase of $3.7 million or 0.5 percent over the 
fiscal year 2018 Request. To execute its enterprise security program, 
DNS provides funding to the sites for: protective forces, physical 
security systems, information security and technical security, 
personnel security, nuclear material control and accountability, and 
security program operations and planning. The request manages risk 
among important, competing demands of the physical security 
infrastructure and includes planning and conceptual design funds for a 
series of future projects to sustain and recapitalize the Perimeter 
Intrusion Detection and Assessment Systems at the Pantex Plant and Y-
12. Preliminary estimates are included within the recently completed 
10-year Physical Security Systems Refresh Plan. Future budget requests 
will reflect refined and detailed funding requirements.
    Information Technology and Cybersecurity enable every element of 
NNSA's missions. The fiscal year 2019 budget request is $221.2 million, 
an increase of $34.4 million, or 18.4 percent over the fiscal year 2018 
request. The cybersecurity program continuously monitors enterprise 
wireless and security technologies to meet a wide range of security 
challenges. The requested funding increase will be used to continue 
working toward a comprehensive information technology and cybersecurity 
program to deliver secure crucial information assets. The funding will 
continue to mature the cybersecurity infrastructure, comprising almost 
100 sensors and over 70 data acquisition servers located across the 
Nation.
Defense Nuclear Nonproliferation Appropriation
    The fiscal year 2019 budget request for the Defense Nuclear 
Nonproliferation account is $1.9 billion, an increase of $69.5 million 
or 3.9 percent above the fiscal year 2018 request. Defense Nuclear 
Nonproliferation account activities address the entire nuclear threat 
spectrum by helping to prevent the proliferation of nuclear weapons, 
counter the threat of nuclear terrorism, and respond to nuclear and 
radiological incidents around the world. The fiscal year 2019 budget 
request funds two program mission areas under the Defense Nuclear 
Nonproliferation account: the Defense Nuclear Nonproliferation (DNN) 
Program and the Nuclear Counterterrorism and Incident Response (NCTIR) 
Program.
            Nonproliferation Efforts
    The Office of Defense Nuclear Nonproliferation works with 
international partners to remove or eliminate vulnerable nuclear 
material; improve global nuclear security through multilateral and 
bilateral technical exchanges and training workshops; help prevent the 
illicit trafficking of nuclear and radioactive materials; secure 
domestic and international civilian buildings containing high-priority 
radioactive material; provide technical reviews of U.S. export license 
applications; conduct export control training sessions for U.S. 
enforcement agencies and international partners; strengthen the 
International Atomic Energy Agency's ability to detect and deter 
nuclear proliferation; advance U.S. capabilities to monitor arms 
control treaties and detect foreign nuclear programs; and maintain 
organizational readiness to respond to and mitigate radiological or 
nuclear incidents worldwide.
    The Material Management and Minimization (M3) program provides an 
integrated approach to addressing the risk posed by nuclear materials. 
The fiscal year 2019 budget request is $332.1 million. The request 
supports the conversion or shut-down of research reactors and isotope 
production facilities that use highly enriched uranium (HEU) and 
acceleration of new, non HEU-based molybdenum-99 production facilities 
in the United States, which recently contributed to the approval of the 
first Food and Drug Administration-approved U.S.-origin technology to 
produce the medical isotope. Additionally, the request for M3 supports 
the removal and disposal of weapons usable nuclear material and 
continues the transition to the dilute and dispose strategy for surplus 
plutonium disposition, including the completion of the independent 
validation of lifecycle cost estimate and schedule for the dilute and 
dispose strategy.
    The Global Material Security program works with partner nations to 
increase the security of vulnerable nuclear and radioactive materials 
and improve ability to deter, detect, and investigate illicit 
trafficking of these materials. The fiscal year 2019 budget request for 
this program is $337.1 million and includes efforts to secure the most 
at-risk radioactive material in U.S. high- threat urban areas by 2020.
    The Nonproliferation and Arms Control program develops and 
implements programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
enduring and emerging proliferation challenges requiring the 
development of innovative policies and approached. The fiscal year 2019 
budget request for this program is $129.7 million. This increase serves 
to improve the deployment readiness of U.S. nuclear disablement and 
dismantlement verification teams and to enhance export control dual-use 
license and interdiction technical reviews.
    The Defense Nuclear Nonproliferation Research and Development 
program supports innovative unilateral and multilateral technical 
capabilities to detect, identify, and characterize foreign nuclear 
weapons programs, illicit diversion of special nuclear material, and 
nuclear detonations worldwide. The fiscal year 2019 budget request for 
this program is $456.1 million.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. The fiscal year 2019 budget request is $279.0 million. As 
in fiscal year 2018, the Administration proposes termination activities 
for the Mixed Oxide (MOX) Fuel Fabrication Facility project and 
continuing to pursue the dilute and dispose option to fulfill the 
United States' commitment to dispose of 34 metric tons of plutonium. 
The $220.0 million for the MOX Facility will be used to continue 
terminating the project and to achieve an orderly and safe closure. The 
scope and costs will be refined in subsequent budget requests when the 
termination plan for the MOX project is approved. The request also 
includes $59.0 million for the Surplus Plutonium Disposition project to 
support the dilute and dispose strategy.
            Nuclear Counterterrorism and Incident Response (NCTIR)
    The fiscal year 2019 budget request for NCTIR is $319.2 million, an 
increase of $41.8 million or 15.1 percent over the fiscal year 2018 
request. NNSA's Counterterrorism and Counterproliferation (CTCP) 
program is part of broader U.S. Government efforts to assess the threat 
of nuclear terrorism and develop technical countermeasures. The 
scientific knowledge generated by this program underpins the technical 
expertise for disabling potential nuclear threat devices, including 
improvised nuclear devices, supports and informs U.S. nuclear security 
policy, and guides nuclear counterterrorism and counterproliferation 
efforts, including interagency nuclear forensics and contingency 
planning.
    The Counterterrorism and Counterproliferation program provides a 
flexible, efficient, and effective response capability for any nuclear/
radiological incident in the United States or abroad by applying the 
unique technical expertise across NNSA's nuclear security enterprise. 
Appropriately trained personnel and specialized technical equipment are 
ready to deploy to provide an integrated response for radiological 
search, render safe, and consequence management for nuclear/
radiological emergencies, national exercises, and security operations 
for large National Security Special Events.
    The CTCP program maintains an operational nuclear forensics 
capability for pre-detonation device disassembly and examination, 
provides operational support for post-detonation assessment, and 
coordinates the analysis of special nuclear materials. Readiness is 
maintained to deploy device disposition and device assessment teams, 
conduct laboratory operations in support of analysis of bulk actinide 
forensics, and to deploy subject matter expertise and operational 
capabilities in support of ground sample collections that contribute to 
conclusions in support of attribution.
    NNSA's Aerial Measuring System (AMS) provides airborne remote 
sensing in the event of a nuclear or radiological accident or incident 
within the continental United States, as well as in support of high-
visibility national security events.
    The AMS fleet consists of three B200 fixed-wing aircraft with an 
average age of 33 years and two Bell 412 helicopters with an average 
age of 24 years. The age of the current aircraft leads to unscheduled 
downtime resulting in reduced mission availability. A recently 
concluded Analysis of Alternatives on the AMS aircraft determined that 
recapitalization of the aging aircraft fleet is necessary to continue 
to provide Federal, State, and local officials with rapid radiological 
information following an accident or incident. The fiscal year 2019 
budget requests $32.5 million as part of a 2-year replacement process 
for the five aircraft.
    The equipment used by NNSA's emergency response teams is aging, 
resulting in increasing maintenance costs and increasing risks to the 
emergency response mission. This budget includes funding for 
incremental recapitalization of incident response equipment consistent 
with lifecycle planning to maintain operational readiness. This budget 
also includes funding for state-of-the-art, secure, deployable 
communications systems that are interoperable with the Federal Bureau 
of Investigation and DoD mission partners that will help provide 
decision makers with real-time technical recommendations to mitigate 
nuclear terrorist threats.
    The Emergency Operations program's fiscal year 2019 budget request 
includes $36 million under NCTIR to support NNSA's Office of Emergency 
Operations. This funding will support NNSA's all hazard emergency 
response capabilities, such as providing incident management training 
and exercise planning, and managing the Emergency Communications 
Network capability for the Department.
Naval Reactors Appropriation
            Advancing Naval Nuclear Propulsion
    Nuclear propulsion for the U.S. Navy's nuclear-powered fleet is 
critical to the security of the United States and its allies as well as 
the security of global sea lanes. NNSA's Naval Reactors Program remains 
at the forefront of technological developments in naval nuclear 
propulsion by advancing new technologies and improvements in naval 
reactor performance. This preeminence provides the U.S. Navy with a 
commanding edge in naval warfighting capabilities.
    The Naval Reactors fiscal year 2019 budget request is $1.8 billion, 
an increase of $308.9 million or 20.9 percent above the fiscal year 
2018 request. In addition to supporting today's operational fleet, the 
requested funding is the foundation for Naval Reactors to deliver 
tomorrow's fleet and recruit and retain a highly-skilled workforce. One 
of Naval Reactors' three national priority projects, continuing design 
and development of the reactor plant for the COLUMBIA-Class submarine, 
featuring a life-of-ship core and electric drive, will replace the 
current OHIO-Class fleet and provide required deterrence capabilities 
for decades. The project to refuel a Research and Training Reactor in 
New York will facilitate COLUMBIA-Class reactor development efforts to 
provide 20 more years of live reactor-based training for fleet 
operators. Funding will also be used to support construction of a new 
spent fuel handling facility in Idaho that will facilitate long term, 
reliable processing and packaging of spent nuclear fuel from aircraft 
carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2019 to support 
these projects and fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at Bettis Atomic Power Laboratory in 
Pittsburgh, Knolls Atomic Power Laboratory and Kesselring Site in 
greater Albany, and the spent nuclear fuel facilities in Idaho can 
perform the research and development, analysis, engineering, and 
testing needed to support today's fleet at sea and develop future 
nuclear-powered warships. The laboratories also perform the technical 
evaluations that enable Naval Reactors to thoroughly assess emergent 
issues and deliver timely responses to provide nuclear safety and 
maximize operational flexibility.
NNSA Federal Salaries and Expenses Appropriation
    The NNSA Federal Salaries and Expenses fiscal year 2019 budget 
request is $422.5 million, an increase of $3.9 million or 0.9 percent 
over the fiscal year 2018 request. The fiscal year 2019 budget request 
provides funding for 1,715 full-time equivalents for the effective 
program and project management and appropriate oversight of the nuclear 
security enterprise. Since 2010, NNSA's program funding has increased 
50 percent, while staffing has decreased 10 percent. NNSA has partnered 
with the Office of Personnel Management to develop a staffing analysis, 
now in its second phase, of a Human Capital Management Plan that 
assesses current personnel levels compared to mission needs. The 
results of the staffing analysis will be used to inform future 
recommendations on appropriate staff size and provide the type and 
number of scientists, engineers, project managers, foreign affairs 
specialists, and support staff needed to accomplish the mission. Part 
of the evaluation includes a review of current staff skill sets and 
areas where skills are needed for project and program management, 
applicable oversight, and day to day operations of the nuclear security 
enterprise.
    Thanks to the support of Congress, NNSA received a 10-year 
extension to continue to use the Demonstration Project personnel 
system. The pay for performance personnel system provides an important 
tool to retain and attract top talent for NNSA's national security 
missions. With the pay to perform personnel system, we are able to 
compete for personnel with other highly technical Federal and private 
organizations, motivate and retain high-performing employees, and deal 
with poor performers. NNSA uses the Demonstration Project in 
conjunction with the Excepted Service hiring authorities to hire key 
personnel for the current and next generation workforce with critical 
nuclear security expertise.
Management & Performance
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a significant portion of NNSAs total project portfolio, 8 
percent under original budget. This past February, the High Explosive 
Pressing Facility at Pantex achieved CD-4 and was completed $25 million 
under the approved baseline. We are committed to encouraging 
competition and increasing the universe of qualified contractors by 
streamlining major acquisition processes. NNSA will continue to focus 
on delivering timely, best-value acquisition solutions for all programs 
and projects, by using a tailored approach to contract structures and 
incentives that is appropriate for the special missions and risks at 
each site. The Office of Acquisition and Project Management continues 
to lead improvements in contract and project management practices; 
provide clear lines of authority and accountability for program and 
project managers; improve cost and schedule performance; and ensure 
Federal Project Directors and Contracting Officers with the appropriate 
skill mix and professional certifications are managing NNSA's work.
Conclusion
    NNSA's diverse and enduring national security missions are crucial 
to the security of the United States, the defense of its allies and 
partners, and global stability. The U.S. nuclear deterrent has and will 
continue to remain the cornerstone of America's national security, and 
NNSA has unique responsibilities to maintain and certify the continued 
safety, security, reliability, and effectiveness of that nuclear 
deterrent.
    Nuclear nonproliferation and nuclear counterterrorism activities 
are essential to promoting the peaceful use of nuclear energy and 
preventing malicious use of nuclear and radiological materials and 
technology around the world. Providing naval nuclear propulsion to the 
U.S. Navy is crucial to the United States to defend interests abroad 
and protect the world's commercial shipping lanes. Each of these 
critical missions depends upon NNSA's capabilities, facilities, 
infrastructure, and world-class workforce.

    Senator Alexander. And now we will move to our first round 
of 5 minute questions.
    Mr. Secretary, you began talking about exascale computing. 
When I first came to the Senate, Senator Bingaman, for whom I 
had a lot of respect, was chairman of the energy committee and 
he encouraged me to go to Japan to see their computer. I think 
it was the earth simulator, if I remember right.
    So I flew all the way to Yokohama and it was just a big box 
was all I could see. I probably could have taken a picture of 
it. But it gave me a sense of the importance of it because he 
thought it was important. So since then, and that was 10, 15 
years ago, we have had bipartisan support to try to maintain 
for our country leadership in supercomputing and we have over 
that time different administrations have reorganized our 
computing effort, provided what we call leadership computing. 
And now we are moving, as you just described, to a new phase of 
what we call Exascale computing. When will that happen and when 
will we see that? And what will the benefits be to our country 
for that?
    Secretary Perry. Mr. Chairman, the Office of Science has 
been working very closely with our leadership on the computing 
facilities and the Exascale, and as you appropriately pointed 
out, we are shooting for 2021. You asked for specificity, a 
date. And 2021 there's $140 million that will be designated for 
Argon. There's $100 million for Oak Ridge and those leadership 
computing facilities. And that's monies to support nonrecurring 
engineering efforts and site preparation for the activities and 
for the Exascale computing project to maintain the planned 
schedule.
    So 2021 at Argon and then 2022 at Oak Ridge. And as you and 
I have talked about the Oak Ridge architecture is different 
than the Argon, but, again, this will give us, put us back into 
quite a substantially better position, let me put it that way. 
We will have the fastest computer in the world for a period of 
time. But this is a competition that goes on every day and our 
friends in China and elsewhere are very capable.
    So but we recently laid out a request for proposal for at 
least two Exascale computers, as I've said. So those are in the 
works. Those $1.8 billion total RFP.
    Senator Alexander. Thank you.
    Let me ask Ms. Gordon-Hagerty about the uranium facility. 
Senator Feinstein and I worked together over the last half 
dozen years I guess to try to, because of our concern about 
cost overruns on the NNSA large construction projects and our 
most successful effort, I think, was to, as a result of two 
things, one was a red team that focused attention on the 
uranium facility and secondly, regular meetings with the person 
on the flagpole, the person in charge, to see whether the 
project was on time and on budget.
    Now, you have said that the project, and we also required 
that construction be 90 percent designed before construction 
began. So that's all worked pretty well and we have got a 
number and a year. You authorized that the uranium facility go 
ahead.
    Are you confident that we are on time and on budget and are 
you willing to continue to work with Senator Feinstein and me, 
meet with us every 6 months or so, to give us a report and to 
let us know if there's any variation in that on time and on 
budget prediction?
    Ms. Gordon-Hagerty. Yes, Mr. Chairman, I'm absolutely 
committed to working with you and Senator Feinstein and the 
members of the committee every 6 months or so, as I had 
promised in our meeting earlier this week. More importantly I 
can say confidently at present time we are committed to 
delivering the Uranium Processing Facility at Oak Ridge 
National Lab--at Y-12 in Oak Ridge on time and on schedule, 
which is by the end of 2025 at a cost of not more than $6.5 
billion.
    Senator Alexander. And am I correct that you did not 
authorize construction until design was 90 percent completed?
    Ms. Gordon-Hagerty. That is correct and we just recently 
have made the recommendation to the Deputy Secretary and he 
agreed just last month that we would go to see CD-123.
    Senator Alexander. Do you think that's a reasonable model 
for other large scale construction projects?
    Ms. Gordon-Hagerty. Yes, sir. And I can tell you that 
during my short tenure here at the NNSA, Department of Energy, 
NNSA, we've talked much about using that model and I believe 
that the NNSA has made significant improvements in 
infrastructure.
    Senator Alexander. Well, I'd like to thank Senator 
Feinstein actually for her role in this because I think this is 
one case where Senate oversight of a large spending project 
made a real, made a real difference.
    Senator Feinstein. Maybe the first one.
    Senator Alexander. Hopefully not the last.
    Senator Feinstein.
    Senator Feinstein. I would like to ask a question about 
ITER (International Thermonuclear Experimental Reactor) because 
I had the privilege of meeting the new director and we have had 
some concern about the funding and it's my understanding that 
the administration has not taken a position on our continued 
involvement. The department was supposed to address that 
question in the fiscal year 2019 budget, but it didn't. And all 
we have is a request for $75 million and an acknowledgment that 
a decision needs to be made.
    If the United States is going to retain a partner in ITER 
then funding in fiscal year 2019 should be roughly $200 million 
or more in order to maintain cost and schedule. Of course when 
we cut it back, I then saw all the American projects that were 
involved in it which used up the money essentially of our 
contribution.
    And so clearly there is American involvement and American 
jobs. Whether ITER can ever be successful or not I think is 
still unknown and I don't know, Mr. Secretary, if you've had a 
chance to take a good look at it, but even if you haven't, if 
there are some views you have that you can share with us it 
would be appreciated.
    Secretary Perry. Senator, I have had the opportunity to 
take a look at it. We visited with the new executive director. 
We have had some fairly extensive conversations about it. I, 
like you, don't know whether or not this will be a successful 
scientific project or not, but we also realize that for the 
future of energy we are going to be, we are going to be 
traveling down some roads from time-to-time that we don't know 
what the destination may look like that we are trying to get to 
and I know that sounds a bit vague, but the fact is on this 
project that may be one of those.
    With that said, there are some projects U.S. manufacturers 
that are involved with that. We have still committed to funding 
their efforts. There's a California project. I think its 
General Atomics that is building a part of that project and 
they've been clearly sent the message that the funding is going 
to continue on there.
    Overall, from a high level view, we are currently carrying 
out a very high level review of nuclear energy related 
activities and it ITER is obviously on that list.
    Senator Feinstein. What do your people say about it? Under 
the new management, what I'm told is, well, it's much better. 
But I don't know what the chances are that we reach fusion.
    Secretary Perry. Paul, would you like to take a shot at 
your fusion, put your fusion goggles on?
    Mr. Dabbar. So it is our opinion that Director General 
Bigot who took over as head of the ITER project has certainly 
got a good handle on the project management and the delivery 
from all the different countries, including our own, and 
coordinating that much better than previously.
    However, the overall project cost had moved from about $11 
billion to $65 billion in our estimate. So, as you know, it's a 
very large amount of money and that's just, that's just a 
construction cost. There's also operating costs going forward 
after it's in operation. And in general we have a 9.09 percent 
part of that. So we have--
    Senator Feinstein. So 9 percent that Chairman just asked 
how much of that is our money.
    Mr. Dabbar. It's about $6.4 billion in construction plus a 
proportional share of operations after it starts operation in 
2025 ramping up to 2035 is the final operations step up. So it 
is a lot of money.
    We, as the Secretary said, we are still evaluating it. Last 
year the 2018 Omni, there were two particular components that 
were in kind so being constructed here in the United States or 
delivering U.S. made components. One is by General Atomics on 
the central solenoid and they also funded the other component, 
which was a cooling water system. Our budget here proposes to 
fund the General Atomics central solenoid in the 2019 budget as 
we continue to evaluate our options under the agreement and 
around the science, given the cost.
    Senator Feinstein. This is hard, I know. Can you estimate 
when a correct judgment might be made?
    Mr. Dabbar. So we think that the cost estimates are 
reasonably, they are coming out of the ITER organization are 
pretty reasonable right now. And so what we are trying to 
evaluate is really the budgetary impact to the department to 
continue that, to recommend whether the appropriators might 
recommend funding it going forward or if there's something else 
that we should be doing around our involvement in the project.
    Senator Feinstein. Yes. So just one thing, will we know 
before we markup?
    Senator Alexander. Doesn't sound like it. Well, we can talk 
more about this. We have had a lot of discussions about this 
and we are very interested in your judgment and your 
evaluation.
    Senator Feinstein. Yes.
    Senator Alexander. Before we markup. We want your best 
judgment before we markup.
    Senator Feinstein. That's right.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Secretary, and your colleagues, welcome. I can remember 
a time, Mr. Secretary, I know you can too, when we imported 
liquefied natural gas and now we are exporting it I think to 27 
different countries. One of which is Mexico.
    Can you or your colleagues enlighten me a little bit about 
how our NAFTA (North American Free Trade Agreement) 
negotiations may impact that export of natural gas to our 
friends in Mexico?
    Secretary Perry. I'll give you my best shot at it and 
Senator, as you may or may not know, in the early 1990s I was a 
part of the NAFTA, the original NAFTA agreement. I think my 
title was the, I was on the intergovernmental policy advisory 
committee. And the longer your title is the less influence you 
have. So I had a pretty long name, but I was on the 
agricultural sector. I was the Ag commissioner in the State of 
Texas at that particular point in time.
    And what we found was that there was a, you know, this was 
a, it turned out from my perspective to be a really good 
agreement. Twenty-five years later it's time to renegotiate the 
contract. The world has changed. Energy is probably the biggest 
factor in that.
    I feel comfortable. I'm not engaged directly in these 
negotiations. Ambassador Lighthizer has got that. The President 
has got that.
    But I feel very confident we are going to get a deal. As I 
told the Ambassador, get a deal, get a good deal, but get a 
deal. We need this. We need this partly because it's in the 
best interests of the United States to have this agreement with 
Mexico.
    I think that the potential with Mexico, and particularly in 
the energy sector, is one of the great bright lights in Mexico. 
If you want to see that country's economic arrow pointed in the 
right direction obviously energy is going to be right at the 
center of that, whether it's allowing U.S. companies to help 
E&P, whether it's the pipeline side of it. I think all the way 
downstream to being able to build a refining and chemical 
industry in Mexico as well. So I think the opportunities are 
extraordinary. Getting a NAFTA deal is really important.
    Senator Kennedy. I'd like to get your thoughts and the 
thoughts of your colleagues too, just in general about the 
changes in America in terms of energy and our mix of energy. 
Obviously we have been long-time dependent on oil. We are 
producing more of our own oil now.
    Secretary Perry. Yes, sir.
    Senator Kennedy. Where do you see the mix of America's 
sources of energy in say the next 10 years in terms of nuclear, 
coal, natural gas, solar, wind, and then I want to talk a 
little bit about battery technology.
    Secretary Perry. I'll try to be brief here.
    Senator Kennedy. That's okay.
    Secretary Perry. We are going to be in all of the above--
country--I think for us to not be all of the above--you 
mentioned all of them and hydro--all of those are going to be, 
I think, inextricably intertwined to the American economy as we 
go forward.
    If we don't have all of those and that's the reason that 
coal and nuclear both have to be brought back into the mix, if 
you will. The previous Administration made both of those 
industries, from my perspective, difficult for them to be 
viable in the market. I think it's very important for this 
country to try to put rules and regulations into place where 
all forms of energy--our renewables are going to continue to 
grow.
    You know, in my home State of Texas we developed more wind 
energy than any other State in the Nation over the last decade.
    Senator Kennedy. Secretary, can I stop you just one second?
    Secretary Perry. Yes, sir.
    Senator Kennedy. Because I'm about to run out of time.
    Secretary Perry. Okay.
    Senator Kennedy. I did want to ask you one other question. 
I worry that China is beating our brains out in terms of 
battery technology. Do you have any thoughts on that?
    Secretary Perry. Well, listen, China is a heck of a 
competitor.
    Senator Kennedy. Yes.
    Secretary Perry. And we have got to be on our A game when 
we come. I happen to think that the National Labs and our 
investment in our National Labs are what are going to keep us 
in the game on battery storage.
    I believe battery storage is the holy grail of the energy 
side of things going forward, particularly on the renewable 
side. And we are working and making good progress. PNNL 
(Pacific Northwest National Laboratory) out in Senator 
Murray's, that they are doing some fabulous work on batteries 
and battery storage.
    And I will suggest to you the answers will be found in our 
universities and our National Labs working together on battery 
storage.
    Senator Kennedy. Thank you, Mr. Secretary.
    Secretary Perry. Yes, sir.
    Senator Kennedy. Do you miss being governor?
    Secretary Perry. It was the best job I ever had. But this 
one is the most interesting job I've ever had.
    Senator Kennedy. It's not dull, is it?
    Secretary Perry. This is a consequential job.
    Senator Alexander. Thank you, Senator Kennedy.
    Secretary Perry. Isn't that right?
    Senator Kennedy. Senator Shaheen, do you miss being 
governor?
    Senator Shaheen. Everyday. How about you?
    Senator Kennedy. And getting more so.
    Senator Shaheen. That's right.
    Mr. Secretary, and all of the panelists here, thank you 
very much for being here today and for taking on the 
challenging responsibilities that you have.
    I notice that there have been a lot of energy sources 
mentioned today, but the one thing that hasn't been mentioned 
is energy efficiency. And I was disappointed to see that the 
President's budget cut the Office of Energy Efficiency and 
Renewable Energy by more than 65 percent. That when energy 
efficiency is the number one job creator within the clean 
energy economy and accounts for three out of four American 
clean energy jobs, employs about 2.2 million Americans.
    And in fact, according to the American Council for an 
Energy Efficient Economy, over the last 40 years energy 
efficiency has contributed more to our Nation's energy needs 
than any other fuel source saving Americans about $800 billion 
during that time period.
    So, I wonder, Mr. Secretary, if you could explain to us why 
we should cut support for critical energy efficiency programs 
when they have made such a difference to our economy and to our 
energy needs.
    Secretary Perry. Senator, I'll attempt to give you my 
observations about what we have done on our budget so that I 
think from my perspective, we have, that budget may be a little 
misleading from the standpoint of the restructuring that we did 
over on that side of the house notwithstanding, you know, our 
2019 request for EERE (Energy Efficiency and Renewable Energy). 
I think we got almost $700 million to maintain America's 
leadership in the transformative science and emerging energy 
technologies.
    We transitioned to early stage--one of the things I found 
as governor was that once technologies get mature that they 
will either make it or they won't out in the marketplace. And 
you know, we believe our role is more in the early stage side 
and so we transition over to the early stage side of this and--
--
    Senator Shaheen. I'm sorry to interrupt, Mr. Secretary, my 
time is running. And so I just want to, I appreciate that 
that's a view of the Department of Energy. I would argue that 
that doesn't seem to be our view with respect to fossil fuels 
like oil and gas and nuclear, and also nuclear power which we 
have been supporting and subsidizing for decades in this 
country.
    So, again, maybe we could submit for the record so you can 
share with me in more detail----
    Secretary Perry. Yes, ma'am.
    Senator Shaheen [continuing]. Your view on that because I 
wanted to get to another issue before my time is up.
    At least twice in 2017 programs that are under the 
jurisdiction of this subcommittee have seen confusion around 
timing and delays, particularly with respect to the DOE 
violating the Congressional Budget and Impoundment Control Act 
by withholding appropriated funds for ARPA-E around 
weatherization.
    I have a letter here, Mr. Chairman, which I would like to 
submit for the record from the Government Accountability 
Office, which was released in February that talks about how 
this impoundment lead to lost jobs and disruption to the 
competitive prospect of several ARPA-E projects.
    Senator Alexander. So ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Shaheen. And I just wondered what you have done to 
address the concerns raised in this GAO letter and what we 
might look for in the next budget year so that that does not 
happen again.
    Secretary Perry. Let me address ARPA-E. The Chairman and I 
have had pretty lengthy discussions about ARPA-E and the--one 
of the things I learned as an appropriator back in my days is 
that--and actually what I learned as governor was a better 
teacher for me than being an appropriator.
    Appropriators do a lot of hard work and lay the budgets out 
and governors sometimes don't get to write those budgets or 
they write a budget and then they----
    Senator Shaheen. I appreciate that.
    Secretary Perry. Anyway. So I respect what you do and I 
happen to--I know what my role is here and if this committee 
decides that they are going to fund ARPA-E at a certain level, 
I'm going to implement it and run it as efficiently and 
effectively as we can. So I hope that you know that we respect 
your right to write that budget and us to implement it.
    Senator Shaheen. Again, another program that had similar 
issues was the Weatherization Assistance Program. So should we 
assume that any delays in funding that this committee has 
thought appropriate will--we will not see the same kind of 
issues in the upcoming budget year that we have seen in the 
last?
    Secretary Perry. We are going to follow the lead of this 
committee.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Shaheen.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary, for your testimony. You said 
a few moments ago that battery storage is a holy grail, did I 
catch that correctly?
    Secretary Perry. That's a quote, sir.
    Senator Merkley. So the current account is funded at $41 
million. As you reorganized you now have under the Office of 
Electricity Delivery $8 million for battery storage and that 
doesn't even sound like a research account.
    So if it's the Holy Grail why are we going from $41 million 
to $8 million with that $8 million not even clearly dedicated 
to research?
    Secretary Perry. Senator, I think, you know, line item, 
pulling out one line item and saying this is all of the dollars 
that we are going to be focusing on a particular effort might 
be a little bit narrow in scope.
    Senator Merkley. Well, okay. Well, let's have you follow-up 
and show us where else in the budget battery storage is. The 
reason we have these conversations is because you label things 
and we assume those labels are accurate.
    Secretary Perry. Yes, sir.
    Senator Merkley. So if you have hidden the battery storage 
somewhere else then that's not helpful to us.
    Secretary Perry. Paul, would you----
    Mr. Dabbar. Yes, Senator. So we have battery line items and 
funding in ARPA-E in the past and the Office of Science and 
EERE and in OE (Office of Electricity Delivery and Energy 
Reliability).
    Senator Merkley. Okay. I'm just going to stop you there. 
One, because we have little time. But let me just point out 
ARPA-E has been reduced to zero in your budget. Now, so don't 
tell me about battery storage funding being in ARPA-E if you 
are zeroing out the account.
    Mr. Secretary, if you believe that high risk, high return 
strategy is the appropriate role for government spending, and I 
think that's what I heard you say that you preferred to do it 
there then after you had mature technologies, then why are you 
cutting ARPA-E to zero?
    Secretary Perry. I think the 2018 budget has $48 million in 
it, Senator.
    Senator Merkley. Well, we are here discussing the fiscal 
year 2019 budget, Mr. Secretary. It's the budget before us. 
That's the purpose of this hearing. Why are you cutting ARPA-E 
to zero?
    Secretary Perry. That's the, that's the budget that we are 
here to defend, sir.
    Senator Merkley. Yes, well defend it. Why are you cutting 
it to zero?
    Secretary Perry. Well, I'll use the same, all the same 
rationale that I used a year ago when I said that I understand 
how the appropriations process works, the budget goes forward 
by the Administration and you all get to write it and then we 
will implement it.
    Senator Merkley. I must say your responsibility to come 
here is to layout a vision for us and to explain that vision. 
I've just asked why your vision is that ARPA-E should be zero 
and you haven't answered the question.
    Secretary Perry. I am giving you the best answer I can give 
you, Senator.
    Senator Merkley. Okay. Well, let's turn to the sale of 
Bonneville. Why do you want to sell Bonneville power?
    Secretary Perry. I'm not going to tell you that that is--
that is an idea that's been laid out on the table for a 
discussion and----
    Senator Merkley. So it's not your recommendation that it be 
sold?
    Secretary Perry. I would suggest to you it's a concept 
that's laid out on the table for conversation.
    Senator Merkley. So are you laying out that concept saying 
that the People who buy it can decide what price to sell the 
transmission services that they acquire?
    Secretary Perry. I'm saying that, you know, let's have a 
conversation, talk about what's the good, what's the bad, how 
is it----
    Senator Merkley. Okay.
    Secretary Perry [continuing]. Affect the----
    Senator Merkley. Well, so let me give you my opinion. It's 
the most horrific idea we have heard in the Northwest ever and 
take it off the table and if you don't have a detailed 
description of how you are planning to do it and a way to 
defend it then don't keep delivering the same bad ideas up here 
to Capitol Hill.
    You will find the Northwest legislators will lay down on 
the tracks to make sure that we don't sell off the ability to 
have reasonable, renewable power and this is our rural 
cooperatives. They were here this week on Capitol Hill saying 
how the heck, why is the Administration proceeding to sell us 
out by selling Bonneville. I couldn't answer them, but I told 
them, you know, I'm going to find out from the Secretary and 
I'm trying to find out now.
    Secretary Perry. Well, here's one of the things I would 
tell them is that the recommendation, the best I recall wasn't 
to sell Bonneville, it was to sell the transmission lines.
    Senator Merkley. It is to sell the transmission assets. 
That is correct and that's what I'm asking about.
    Secretary Perry. And again, I will say, let's have the 
conversation. But what you were making the argument about is 
that we are going to sell Bonneville and that's not correct.
    Senator Merkley. Bonneville transmission assets.
    Secretary Perry. The Bonneville transmission lines.
    Senator Merkley. That's right. And I asked you specifically 
are you going to, when people buy the transmission lines, allow 
them to set the price for the use of those lines.
    Secretary Perry. It's a good conversation to have.
    Senator Merkley. Okay. It's a bad idea.
    Secretary Perry. Show me the economics of it one way or the 
other.
    Senator Merkley. Let's put a stake through the heart of 
that, through the heart of that conversation. I want to turn to 
the same topic my colleague mentioned in terms of energy 
efficiency and renewable energy because when Mark Menezes, your 
Under Secretary, explained why the cuts should occur, he said 
accomplishments have been made in these programs. And you 
mention that you prefer early technology rather than late 
technology.
    So why would you proceed on something that's on a fast 
curve of technological transformation where we are in direct 
competition with the rest of the world? Why would we undermine 
that effort while you are increasing the funding for age old 
fossil fuel research?
    Secretary Perry. And you're asking about the weatherization 
program?
    Senator Merkley. No. No. No, EERE.
    Secretary Perry. EERE.
    Senator Merkley. Yes.
    Secretary Perry. And we talked about early stage and those 
becoming mature and going on----
    Senator Merkley. Those technologies are not mature yet, 
they are changing dramatically year-after-year, just like you 
mentioned on battery technology.
    Secretary Perry. I will suggest to you----
    Senator Merkley. Okay. I'm out of time, but thank you very 
much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Hoeven.
    Senator Hoeven. Governor Secretary Perry, it's an honor to 
see you.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Hope you are doing well. Hope you are 
enjoying the job. Thanks for being here today. Appreciate it.
    We need to get you out to North Dakota to see some of the 
really innovative stuff that we are doing both at the Energy & 
Environmental Research Center and at Dakota Gasification where 
we are not only converting coal into liquefied natural gas, we 
are capturing CO<INF>2</INF> and sending it out to the oil 
fields and putting it down whole. Similar to what Denver is 
doing down in your State, except that we are using it for 
singular oil recovery instead of just sequestration and now 
they have built a half a billion dollar fertilizer plant that 
they are going to run with that natural gas.
    So it would be really great to have you come out and see 
those things and I think you'd really enjoy it. And weather is 
warming up a little and I know you being from Texas like that. 
So we would love to have you come.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Is that yes, sir in the affirmative?
    Secretary Perry. Yes, sir, in the affirmative.
    Senator Hoeven. That's good.
    Now let's talk about your support for some of this fossil 
energy research and development. Project Tundra is a project we 
have where we are putting actual scrubbers on the back end that 
capture CO<INF>2</INF> on existing plants for sequestration and 
in the Alum cycle is the technology where we would actually 
build a plant. You've got one in Petra Nova I think in Houston.
    Secretary Perry. Yes, sir.
    Senator Hoeven. And we have both our State and the industry 
collaborating. We have gotten some funding already out of DOE. 
Got $6 million last year to get these underway and I would like 
to just have you talk about your commitment to that technology 
and helping to develop it.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Unless you want to talk about Bonneville 
power some more. It's up to you. I mean, I'd give you the 
choice.
    Secretary Perry. No. That's kind. Thank you.
    I think we beat that horse. We beat that horse about as 
much as we want to beat it.
    Senator Hoeven. Senator Murray might----
    Secretary Perry. I got the message. The stake is in my 
hand.
    So the technology that we are seeing brought forward on 
clean coal, carbon capture, utilization (CCU) is starting to 
take off across the globe and I think that's one of the most 
important things about this is that I'm leaving Friday for 
India. We will be talking to them about not only their 
continued growth in the innovation side of things buying U.S. 
technology. CCU will be part of that that we talk to them 
about. So the potential for U.S. technology to be delivered and 
deployed across the globe, particularly into those countries 
that are going to continue to use coal.
    Senator Hoeven. Right.
    Secretary Perry. By 2040 77 percent of all the energy 
produced in the world is still going to be produced by fossil 
fuels. I mean that's a fact.
    We want it to be U.S. based resources as often as possible, 
but we also want it to be clean burning as it can be and that's 
where the CCUS (carbon capture, utilization, and storage) and 
the technology that's ongoing at these projects, like you have 
in your home State and we are working on at our labs.
    Senator Hoeven. Yes. And this is the real solution. It's 
not overregulation. It's this technology and innovation is the 
real solution. No question about it.
    And just like we have done with Sox, Knox and Mercury we 
are making progress on this and we will find a way not just to 
make it technologically feasible, but commercially viable. 
That's it, commercially viable is where we have to get to.
    Secretary Perry. Yes, sir.
    Senator Hoeven. We really appreciate it. I know you get it 
and I appreciate your help on it. I'm glad to hear you are 
going over to India, China, and those kind of places obviously. 
We will adapt that technology. They will buy it from us as we 
develop it.
    Secretary Perry. They will indeed.
    Senator Hoeven. And then I want to shift to you, Ms. 
Gordon-Hagerty. Talk to me about the W80-4 refurbishment, you 
know, which is the, you know, the new cruise missile, long-
reach standoff missile. We need your work on that project to 
stay on track.
    And so just talk to me about how you're going to get on our 
timeline and stay on our timeline because, you know, we need 
that new technology to defeat our enemies' defensive systems if 
we are going to continue to be, you know, capable militarily of 
doing that. And that's what that timeline is all about is 
making sure we stay ahead of their defenses. So please talk to 
me how we are going to stay on track with that.
    Ms. Gordon-Hagerty. Yes, Senator. Thank you for the 
question.
    We actually are on track and on timeline right now and we 
are aligning our program with the U.S. Air Force and basically, 
with consistent and reliable funding we will be able to align 
our programs with the Air Force and continue to do so. And this 
is our, it's a heavy lift for us, but we certainly are on 
track, as we are with all of our other major, our major alt and 
our three LEPs (life extension programs) that we have currently 
undergoing.
    Senator Hoeven. And it absolutely aligns with the 
Administration's goal.
    Ms. Gordon-Hagerty. Absolutely. Yes, it does.
    Senator Hoeven. And Secretary Perry, also just ask for your 
continued support for our cooperative agreements with the 
Energy & Environment Research Center at the University of North 
Dakota on--the Colton.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Thank you again to all of you. Appreciate 
you being here.
    Secretary Perry. Thank you, Governor.
    Senator Alexander. Thank you, Senator Hoeven.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. And 
thank you, you and Senator Feinstein, for your tremendous work 
on the 2018 omnibus bill. It rejected bad policies and put good 
investments in place for my State and the entire Country. We 
appreciate it.
    On BPA (Bonneville Power Administration), what Senator 
Merkley said. Stake in it, Mr. Chairman--Mr. Secretary. What 
Senator Merkley said, I agree too, we cannot privatize the 
transmission lines. Absolutely opposed to it. I think you heard 
us.
    Secretary Perry. Not only today but before.
    Senator Murray. Okay. Well, let me really focus on the 
Hanford site, as I'm sure you knew I would.
    Last year you told me that DOE supports completing the low-
activity waste facility and hot commissioning by December, 
2023. And I appreciate your efforts to try and accelerate that 
work.
    It has become abundantly clear that reaching this court 
mandated deadline sooner comes at the expense now of the rest 
of the waste treatment plant. DOE just spent years resolving 
the technical issues and the high-level waste facility is ready 
to resume design, engineering and procurement and technical 
issues resolution for the pretreatment facility is nearly 
complete.
    So now is not the time to take our foot off the gas. In 
fact, the recently enacted spending bill that we just approved 
provides $75 million for the high-level waste facility and 
prevents DOE from initiating any changes without proper and 
detailed justification.
    So let me ask you, Mr. Secretary, has DOE made a decision 
to place the high-level waste facility and/or the pretreatment 
facility into an extended preservation mode?
    Secretary Perry. We have not.
    Senator Murray. You have not. Well, I'm worried because, 
from the looks of it, your proposed budget reflects a decision 
only providing funding for, ``configuration management of 
design and procurement documents,'' for both facilities.
    So will your budget allow for any work other than 
preserving or maintaining the existing structure?
    Secretary Perry. Senator, I think the study still goes on 
about how to get that back online. Our focus and what we talked 
to Bechtel about was to get the DFLAW (direct-feed low activity 
waste) program, get it up and working where we can get the, you 
know, get the waste treated and start it heading off of that 
facility.
    Senator Murray. Okay. Well, will you follow Congressional 
direction and move forward with the design and engineering work 
on the high-level waste facility?
    Secretary Perry. Senator, I will follow your direction--
    Senator Murray. Okay.
    Secretary Perry [continuing]. And the committee and the 
Senate.
    Senator Murray. Okay. I would be remiss if I didn't remind 
you that I have been asking you and DOE at all levels for more 
information on your proposals for Hanford's tank waste 
treatment mission.
    I am still waiting for answers and clarity and I just want 
you to know I'm not going to support any proposals until we get 
a thorough review and analysis to Congress and to the State of 
Washington and to the Tri-Cities Community because DOE has a 
legal and a moral obligation to meet those Hanford cleanup 
responsibilities.
    Secretary Perry. Senator, I think you know that C Farm is 
at--we are going to be able to make an announcement about C 
Farm and about cleaning up C Farm that hasn't been done in the 
past. So I look forward to coming out----
    Senator Murray. And you'll give details of that?
    Secretary Perry [continuing]. And making that announcement 
with you in the not too distant future.
    Senator Murray. Okay. I want to follow-up on Senator 
Shaheen's concern because, as she talked about, and I'm worried 
about, President Trump's budget for DOE fails to make the 
necessary investments in science and engineering to make sure 
that we, as United States, continue our global leadership.
    Our national labs, you've called them the crown jewels, 
would be forced to let go of thousands of scientists and 
engineers under your budget and that loss of knowledge and 
experience would be just staggering. So I'm really grateful 
actually for the strong support within this subcommittee for 
EERE programs that support critical research and development, 
as Senator Shaheen talked about, for energy efficiency, 
renewable energy, alternative transportation. In fact, provided 
a historic $2.3 billion in the recent bill.
    Your budget proposed a fraction of that. It would be a 70 
percent cut which would have significant impacts to our 
national labs, including PNNL (Pacific Northwest National 
Laboratory) in my home State and universities and our industry 
partners. So I am really worried about that and wanted to ask 
you why your budget doesn't support the EER programs.
    Secretary Perry. Senator, I disagree with that analysis 
that we don't support the sciences and what have you. What we 
are looking at is, I think, a difference in line items.
    We are standing up an Office of Cybersecurity with a pretty 
substantial increase in that budget alone. So I don't see, and 
I'll go back and reiterate this issue of we are focusing on 
early stage, not more mature technologies. And I think as you 
have seen these dollars being shifted around that's where, you 
know, that's where the criticism comes is that it appears that, 
you know, we are not following the old line item, we are not 
following the old budgetary restrictions if you will.
    Senator Murray. Well, just understand that if we were to 
enact the budget as you sent it it would have a severe impact, 
a severe cut to our national labs.
    Okay. Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murray.
    Senator Udall.
    Senator Udall. Thank you, Chairman Alexander, and thank you 
for your leadership on this subcommittee.
    Secretary Perry, it's good to see you and I want to thank 
you for taking the time to speak to us about the NNSA budget 
and also I see the Administrator here.
    Secretary Perry. Yes, sir.
    Senator Udall. So I have a couple of questions I think for 
you.
    I'm very happy to see you made a whirlwind visit into New 
Mexico and Los Alamos National Lab and meeting with some of 
those best and brightest scientists we have there.
    One of the most important missions facing DOE and our 
country today is the plutonium mission. That is a challenging 
endeavor and there is only one place in the U.S. with the 
technical know-how to do this and that is the Los Alamos 
National Laboratory.
    As you know I'm concerned about the DOE analysis of 
alternatives and the process that has been undertaken to 
determine the host for the plutonium mission. That DOE analysis 
ignored the Nuclear Weapons Council, DOE's own cost office, and 
Congressional direction, which have all pointed DOE towards the 
modular approach at Los Alamos.
    And this question is to both of you, will you continue to 
ensure that this mission is based on science and security 
requirements, not politics, and that the modular approach at 
Los Alamos is fully considered in the analysis of alternatives?
    Secretary Perry. Yes, sir. And Senator, you know, that the 
commitment----
    Senator Udall. If you want to just say yes, that's great.
    Secretary Perry. Yes, sir.
    Senator Udall. Yes.
    Secretary Perry. Yes, sir. And stop right there.
    Senator Udall. And Madam Administrator.
    Ms. Gordon-Hagerty. Yes.
    Senator Udall. Okay. We are going to hold you to that. As 
you know, you and I have visited several times about this----
    Secretary Perry. Yes, sir.
    Senator Udall [continuing]. And we really hope that we 
focus on specifically what I just talked about there.
    When asked about cleanup during your visit to Los Alamos 
last year you stated, and these are the quotes I believe 
publicly, I want to get things done. I'm a realist. I realize 
we are not going to clean it up overnight. We are going to make 
progress.
    We appreciate that and I was pleased the budget agreement 
enabled the subcommittee to devote more resources to cleanup at 
Los Alamos. We will be looking to do so again in 2019.
    Going forward we have a new, stand alone cleanup contract 
there and I believe the transition needs to be successful.
    Will you direct DOE's Office of Environmental Management to 
do everything in their power to ensure a smooth transition for 
that contract so that we do make progress and do not face a 
slow down as we transition from one contractor to another?
    Secretary Perry. Yes, sir.
    Senator Udall. Thank you.
    And this is I think to both of you. There are some new 
nuclear missions that have been proposed in this budget and the 
Nuclear Posture Review. I'm concerned, however, that these new 
missions could end up taking away money from the existing 
stockpile stewardship program and divert attention from the 
life extension programs that are already on a tight timeline. 
Like many Americans, I'm concerned about the proliferation of 
nuclear weapons and the last thing we need are new arms races 
around the world.
    Do you agree that our effort to complete the existing 
stockpile stewardship program on time and at the best price for 
the taxpayer cannot afford to be distracted by new nuclear 
missions?
    Secretary Perry. Yes, sir.
    Senator Udall. You.
    Ms. Gordon-Hagerty. Sir, I'm confident that we are on 
schedule and within budget for our three life extension 
programs and our ongoing major alt to the W88.
    Senator Udall. As you all know, and I know Senator 
Alexander knows, that was a big, the moving forward on the 
modernization was a big bipartisan effort that was put together 
in the last administration, had very good, strong bipartisan 
support on both sides.
    The clearance backlog is impacting everyone in the national 
security space. We are pleased that DOE has put in place some 
teams to help address this, but it will take time to work 
through.
    Will you continue to direct the resources necessary to 
reduce the time for clearances while maintaining standards?
    Secretary Perry. Yes, sir.
    Senator Udall. Thank you very much. There are many 
individuals in New Mexico and elsewhere who are anxious and 
willing to contribute to this important national security 
mission and when they have to wait a year or more for a 
clearance there's a clear disincentive for them to work at the 
labs versus a private facility, which in many cases may pay 
more than a government job. So I hope you really work on that 
clearance issue.
    And please, I know this is something that the Chairman is 
concerned about and many members of this committee. Let us know 
what we can do, if we can move that process along to make you 
all more effective and achieve your missions.
    Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall. And thanks for 
your active participation in the subcommittee.
    Mr. Secretary, I just have a couple of more points. This, I 
didn't want to interrupt while the Bonneville Senators were 
speaking, but there's a thing called TVA, which is in 
Tennessee, and there is some gremlin over in the Office of 
Management & Budget that through every President somehow this 
gremlin makes his way up through the floor and gets into some 
budget proposal the proposal to sell either Bonneville or TVA 
or the transmission assets.
    And my hope would be that somebody would find that gremlin 
and lock him in a closet and that the Administration would 
focus its attention on other, other issues. And I don't need 
for you to respond to that.
    Let me ask you about ARPA-E. You and I have had a lot of 
discussions about it. And I do appreciate the fact that you 
recognize that the budget may recommend one thing, we may 
decide another. And in the case of ARPA-E, as we have 
discussed, that was the result of the rising above of the 
gathering storm proposal by a distinguished group of Americans. 
It was the hope that over time it would do for energy what 
DARPA (Defense Advanced Research Projects Agency) had done for 
defense, or something like that. And it's off to a good start. 
So we have funded it.
    One of the areas where I've always been hopeful. And you 
mentioned the words, Holy Grail. I've always thought the Holy 
Grail for energy was to find, to use your words, a commercially 
viable carbon recapture.
    I'm not so optimistic about the projects we have so far. 
They are expensive. They don't work as well as we would like 
and they have a hard time competing in the marketplace with 
other forms of energy.
    But if we can find a way to reuse carbon, to recycle 
carbon, somehow, think of the magnificent opportunity that 
would present all over the world. Because as Governor Hoeven 
said, we figured out what to do with sulfur, nitrogen and 
mercury. We can get rid of that.
    If we can recycle carbon we can use coal everywhere and 
that would seem to me to be ripe for ARPA-E. There was one 
project at ARPA-E which sought to use electricity in a way that 
reused carbon and I don't think it in the end succeeded.
    And there have been other projects that have recycled 
carbon. But they produced so much stuff. For example, it turned 
into limestone. Nobody knew what to do with all that limestone.
    So it's--and there are a lot of smart people out there. You 
would think they would have solved it by now. But it seems to 
me that some biologist or some physicist will find a way to 
essentially recycle carbon in a commercially viable way so that 
we can use coal.
    And I wonder if there were any comments that you had to 
make about that or if there were a way that you could put a 
priority on that. You have got the authority to do it, at least 
through ARPA-E and through a small amount of money that we 
appropriate to carbon reuse.
    What are your thoughts?
    Secretary Perry. Senator, one of the things that we've done 
on the carbon capture utilization sequestration issue is to 
take it to a more global audience. Last year at the Clean 
Energy Ministerial in China, we were able to get that issue 
onto the list of areas that they were going to support, to 
study, to promote and in that Clean Energy Ministerial.
    So we were able to move it into a, into a position of 
getting substantially more observation, if you will, more 
support, in the global community. The United States is going to 
be one of the leaders on that. Our national labs, some of the 
work that they are going to be doing.
    I don't disagree with you. You and I have had this 
conversation before and in front of this committee a year ago. 
You know, there are certain parts of the budget that I have 
substantially more support for than others and if this 
committee, as they have done in the 2018 budget decide to fund 
ARPA-E, I'm going to with great energy work with you to find 
the places that we can have the biggest impact on this.
    Senator Alexander. Well, I appreciate that. But I was 
hoping it might--that with your interest in fossil fuels as 
well as your acknowledged interest in renewable energy as well 
that you might encourage ARPA-E in other parts of the 
Department to see if some scientist or some biologist could 
come up with this holy grail of the commercially viable carbon 
recapture. Because I'm not confident the sequestration is--I 
know it is not there and I don't know if it will ever get 
there. I keep thinking there's some bug or something in biology 
or something in physics that will make this possible, but I 
don't know how to do it.
    Secretary Perry. Yes, sir.
    Senator Alexander. I want to thank all of you for coming, 
Mr. Secretary, Ms. Gordon-Hagerty, thank you for coming. Mr. 
Dabbar, Mr. Vonglis, thank you for being a part of the 
Government and giving your time and energy to that. It's very 
important. You have an enormously important Department.
    Senator Feinstein and I, all of us appreciate the 
responsiveness of the Department. The more you work with us and 
our staffs the easier it is for us to create an environment in 
which you can succeed. And if you can succeed, our country can 
succeed.
    The hearing record will remain open for 10 days. Senators 
may submit additional information or questions for the record 
within that time if they would like.
     The subcommittee requests all responses to questions for 
the record be provided within 30 days of receipt.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you for being here. The committee 
will stand adjourned.
    [Whereupon, at 4:11 p.m., Wednesday, April 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

                           [all]
</pre></body></html>
